      IG’s

Semiannual Report

  to Congress





     March 2006
                     Office of Inspector General

                         Organizational Chart



                                                                      Inspector
                                                                       General
              Office of
           Compliance and                                                                                                    Office of
           Administration                                             Deputy                                                 Counsel
                                                                 Inspector General


             Office of                                                                                                   Office of
         Inspections and                                                                                            Systems Evaluation
       Program Evaluations



                             Office of                                                                          Office of
                              Audits                                                                         Investigations




  Business &           Financial Statements               Regional                  Investigative               Investigative             Investigative
Science Division         & Accountability                  Audits                     Services                  Field Offices            Resident Offices
                              Audits




                                                 OIG Points of Contact
Inspector General......................................(202) 482-4661        Office of Counsel ........................................ (202) 482-5992
Legislative and                                                              Office of Inspections and Program Eval. .... (202) 482-2754
Intergovernmental Affairs...........................(202) 482-2187           Office of Investigations ............................... (202) 482-0934
Office of Audits...........................................(202) 482-1934    Office of Systems Evaluation...................... (202) 482-6186
Office of Compliance and Admin................(202) 482-2637                 Media Inquiries ........................................... (202) 482-5992

 REQUESTS FOR REPORTS:                                                       OIG HOTLINE:
 Telephone ................................................ (202) 482-1243   Telephone...................................................(202) 482-2495
 Internet e-mail.................................. oigweb@oig.doc.gov                                                                   or (800) 424-5197
                                                                             TDD............................................................(202) 482-5923
                                                                             Internet e-mail....................................hotline@oig.doc.gov

                                                       OIG Internet Home Page

                                                  www.oig.doc.gov
                                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                                        The Inspector General
                                                                        Washington, D.C. 20230




March 2006

The Honorable Carlos M. Gutierrez
Secretary of Commerce
Washington, D.C. 20230


Dear Mr. Secretary:

In accordance with the Inspector General Act of 1978, I am pleased to submit our Semiannual Report to Congress for the first
half of fiscal year 2006. This report outlines the work and activities of my office for the 6-month period October 1, 2005, through
March 31, 2006. The act requires that we prepare this report twice each year to summarize our assessments of Commerce
operations and that you transmit it, with any comments you may wish to add, to Congress within 30 days of receiving it.

This reporting period has been especially productive for my office, as we have concluded reviews of several critical, large-
scale departmental operations that I know are of particular interest to you. Most notably, we focused on Commerce’s mis-
sion, responsibilities, and opportunities in China with a comprehensive inspection of the Commercial Service’s China post
and the Bureau of Industry and Security’s export control processes for that country. For the most part, these operations are
sound, but both have issues that require senior management’s attention to best achieve Commerce’s goals for balancing
trade between our countries without compromising our national security.

We also reviewed the Census 2006 test of address canvassing and noted several key operational and logistical issues that
the bureau chose not to focus on, and thus, we believe, missed the opportunity to enhance related operations for 2010.

With our comprehensive evaluation of the Department’s management of the Federal Employees’ Compensation Act program,
we found many serious shortcomings. But I must tell you that your senior officials in this—and most other instances—have
responded promptly with actions that should ameliorate many of the long-standing problems we uncovered.

I also am pleased to tell you that the Department achieved a major milestone during this semiannual period: our most
recent work involving our reviews of GPRA implementation—which has been a top management challenge for the past 7
years—showed that Commerce has made great strides in improving the quality and reliability of its performance data and
associated reporting, thanks in large part to the increased attention your senior managers have given this issue. We have
therefore removed it from the challenge list, and in its place, we have added the need for closely monitoring development
and acquisition of environmental satellites—an enormously expensive and important activity that requires the attention of
senior Department officials.

As always, I am grateful for your open support of the work of my office. I look forward to another productive period that
will result in still stronger operations and greater efficiencies throughout Commerce and its bureaus.


Sincerely,




Johnnie E. Frazier
ContentS

IG’s Message to Congress ......................................................................................................................................................................1



Major Challenges for the Department .................................................................................................................................................3

      Strengthen Department-Wide Information Security..........................................................................................................................3

      Effectively Manage Departmental and Bureau Acquisition Processes..............................................................................................4

      Strengthen Internal Controls over Financial, Programmatic, and Business Processes......................................................................5

      Ensure that USPTO Uses Its Authorities and Flexibilities as a Performance-Based Organization to Achieve Better Results .........6

      Control the Cost and Improve the Accuracy of the Decennial Census..............................................................................................7

      Effectively Manage the Development and Acquisition of Environmental Satellites ........................................................................8

      Promote Fair Competition in International Trade..............................................................................................................................9

      Effectively Manage NOAA’s Stewardship of Ocean and Living Marine Resources ......................................................................10

      Aggressively Monitor Emergency Preparedness, Safety, and Security Responsibilities ................................................................11

      Enhance Export Controls for Dual-Use Commodities ....................................................................................................................11



Agency Overviews
      Bureau of Industry and Security ......................................................................................................................................................13

      Economic Development Administration..........................................................................................................................................17

      Economics and Statistics Administration ........................................................................................................................................19

      International Trade Administration..................................................................................................................................................23

      Minority Business Development Agency ........................................................................................................................................27

      National Oceanic and Atmospheric Administration ........................................................................................................................29

      National Telecommunications and Information Administration .....................................................................................................33

      Technology Administration..............................................................................................................................................................35

      United States Patent and Trademark Office.....................................................................................................................................37

      Department-Wide Management.......................................................................................................................................................39



Office of Inspector General .................................................................................................................................................................47

      Office of Investigations....................................................................................................................................................................48

      Tables and Statistics.........................................................................................................................................................................52

      Reporting Requirements ..................................................................................................................................................................60



Acronyms ..............................................................................................................................................................................................63



Types of OIG Work Products ..............................................................................................................................................................65

The vintage images that appear throughout the book
show the Commerce Herbert C. Hoover Building in
various stages of construction during the 1930s.
IG’s Message to Congress



The 21st century, though barely half a decade old, has confronted
government at all levels with challenges of unprecedented scope           The Secretary’s Policy Priorities
and complexity: the constant call to diffuse new threats to our
security coupled with catastrophic natural events at home and               •	   Competitiveness	and	Innovation
abroad are but two of the more obvious realities of recent years            •	   Intellectual	Property	Rights
that have pushed federal agencies to redefine the methods by                •	   Trade
which they accomplish their mission-critical activities efficiently         •	   China
and effectively. Ours is a world of unpredictability. And in this           •	   Environmental	Stewardship
environment, “business as usual” in government has come to mean             •	   Gulf	Coast	Rebuilding
a continual reexamination and readjustment of priorities to ensure          •	   Immigration
the integrity of operations and best service to the public.

I am pleased to report that the work of my office during this first   Greater Coordination Recommended for
semiannual period of fiscal year 2006 has uncovered numerous          Commerce’s China Operations
instances in which the Department of Commerce has risen to the
challenge of adjusting its priorities to meet new needs even as it    The Department has an important mission, key responsibilities, and
pursues longer standing issues. This is evident in the strides it     a major presence in China, with staff from three bureaus assigned
has made in improving an array of critical activities during these    to what by many accounts is one of our most controversial trading
past months and in addressing the top management challenges           partners. China is the second largest foreign supplier of goods to
we have identified. At the same time, Secretary Gutierrez has laid    the U.S.1 and the source of a significant trade imbalance. Its open
out what he sees as the key issues of consequence requiring the       aspirations for nuclear capabilities further complicate trade rela
Department’s sustained attention, several of which complement         tions and underscore the need for effective export controls.
our list of management challenges. He has continued to underscore
the need for active collaboration with us in addressing areas of      Our inspection of Commercial Service operations in China in
mutual concern.                                                       tandem with our review of the Bureau of Industry and Security’s
                                                                      export control policies and procedures for that country provided a
Significant Improvement Noted                                         comprehensive look at the strengths and weaknesses of these op
in Performance Reporting                                              erations and related activities. (See pages 23 and 13, respectively.)
                                                                      We found that overall, the Department’s trade operations in China
The Department’s performance reporting under the Government           are sound, but would benefit from better coordination among the
Performance and Results Act has been problematic for years and        Commerce agencies stationed there. Secretary Gutierrez has made
on our list of top challenges since 1999. Accurate performance        trade policies and operations with China a priority of his tenure.
measures and reliable data are imperative. Without them, Com          To address the weaknesses in coordination we noted, the Secretary
merce cannot know whether programs are accomplishing their            has directed his Deputy Secretary to convene quarterly meetings
intended purpose, nor can it make informed funding decisions. Our     of the Department’s principal officials who have staff in China as
reviews of performance reporting at various bureaus over the past 5   “a forum for the exchange of information, to identify emerging
years identified numerous deficiencies that rendered reported data    issues, and to improve overall coordination of our China opera
of minimal use in assessing the true value or success of activities   tions.” I believe this action will go a long way toward ensuring that
and operations. During this semiannual period, we followed up         Commerce fully leverages trade opportunities with China while
on this work and found that although there are still opportunities    protecting national security interests.
for further improvements, the Department and its bureaus have
restructured their performance measurement process and practices
so significantly that GPRA no longer warrants a place on our top      1
                                                                       U.S. Government Accountability Office, April 2006. China Trade: Challenges
challenge list. Commerce officials deserve to be commended for        and Choices to Apply Countervailing Duties to China, GAO-06-608T. Washington,
their dedicated attention to this issue and the resulting success.    D.C.:GAO.




March 2006/Semiannual Report to Congress                                                                                                        
IG’s Message to Congress




Swift Action Needed to Bolster FECA                                              A follow-up audit of NOAA user fees suggested further
Program Oversight                                                                enhancements to improve control of these funds (page
                                                                                 29), and audits of Commerce financial assistance recipi
During this past year, the Inspection and Evaluation (I&E) Commit                ents identified millions in questioned costs and funds to
tee of the President’s Council on Integrity and Efficiency established           be put to better use. (See pages 30, 33, and 35.)
a working group to coordinate efforts among OIGs to evaluate their
                                                                              •	 Missed Opportunities in Census Decennial Testing
agency’s handling of the Federal Employees’ Compensation Act
                                                                                 With the 2006 test of address canvassing, the Census
(a.k.a., workers’ compensation) program. As chairman of the I&E
                                                                                 Bureau marked a second major milestone in its efforts
Committee, I welcomed this opportunity to promote inter-OIG col
                                                                                 to automate processes for the 2010 decennial, this time
laboration on this multibillion program that—in the absence of strict
                                                                                 attempting to update its address lists and associated maps
oversight—is so susceptible to fraud, waste, and abuse.
                                                                                 using handheld computers. The units suffered from many
                                                                                 of the same reliability problems that surfaced in the 2004
The scope of inattention to the FECA workload we noted in our
                                                                                 test of nonresponse follow-up. We also noted weaknesses
review at Commerce was disturbing and mirrored findings by
                                                                                 in training, outreach, and several other logistical and ad
other IGs. By not aggressively monitoring the status of claimants,
                                                                                 ministrative procedures that must be resolved before the
Commerce failed to bring work-ready employees back on the job,
                                                                                 2008 dress rehearsal, and raised questions about the costs
refer suspected cases of fraud to our office, or identify incorrect
                                                                                 and benefits of conducting 100 percent address canvass
or excessive benefit payments. (See page 39.)
                                                                                 ing. (See page 19.)
The Department responded to our findings immediately by greatly
enhancing its management of the program. It has also instituted train     Continued Department-wide
ing for departmental personnel who oversee the FECA program, is           Collaboration Assured
seeking ways to return employees to work as soon as possible, and
has strengthened its interaction with the Labor Department.               I began this message discussing the need for agencies to constantly
                                                                          reassess priorities and redirect their efforts. Secretary Gutierrez—in
                                                                          issuing his list of top concerns for the Department—has taken stock
OIG Investigations: Numerous Cases                                        of current and emerging global situations that impact Commerce’s
Successfully Concluded, Large                                             many critical roles and has adjusted its priorities as necessary. My
Recoveries Made                                                           office has done the same with regard to the top management chal
                                                                          lenges facing the Department: we evaluated Commerce’s progress
Our Office of Investigations was extremely productive during this
                                                                          in addressing the challenges and considered new areas that warrant
reporting period, pursuing numerous cases of fraud and criminal
                                                                          careful, ongoing attention. As noted earlier, we removed GPRA
conduct by Commerce employees, recipients of federal funds, and
                                                                          implementation from the list. We refocused the challenge on
other parties, which resulted in the recovery of $7.5 million in fines,
                                                                          financial management controls and systems to encompass more
restitution, and other sanctions. (See page 48.) Our state-of-the-art
                                                                          broadly the need for strong internal controls over all Department
Computer Crimes Unit focuses on uncovering instances of criminal
                                                                          processes—financial, program, and business. And finally, we added
use of government computers, particularly in the area of Internet
                                                                          a new challenge for monitoring development and acquisition of
child pornography. We have seen the number of prosecutions in
                                                                          environmental satellites—an area in which Commerce will make
this area significantly expand, thanks in part to increased vigilance
                                                                          huge investments over the next 4 years to support missions that are
by agency IT security specialists, who routinely refer instances
                                                                          critical to the well-being of the nation and the world.
of suspected criminal conduct to us. One example of the positive
results achieved through departmental cooperation was the highly
                                                                          I have shared these new priorities with the Secretary, and many of
publicized case of a NOAA employee indicted for sexual exploita
                                                                          them complement those on his list: strong trade operations, sound
tion of children and possession of child pornography.
                                                                          business processes and investment, and aggressive stewardship
                                                                          of marine and environmental resources, to name a few. He has
Other Areas of Interest                                                   assured me that he and his senior officials will support our work
                                                                          in all the challenge areas and collaborate with my office to make
You will find in the pages of this report the details of numerous other
                                                                          recommended improvements, with the goal of retiring each of
reviews completed during this semiannual period. For example:
                                                                          these challenges as soon as possible.
    •	 Financial Accountability This year’s financial statements
       audits rendered clean opinions for the Department and              I look forward to sharing with you the positive impact on Com
       United States Patent and Trademark Office. This is the 7th         merce operations that I know will result from this collaboration.
       consecutive year Commerce has received a clean opinion             And I welcome your continued input on our work to ensure that
       and the 13th year for USPTO. (See pages 43 and 37.)                our focus addresses your priorities as well.




                                                                                    U.S. Department of Commerce/Office of Inspector General
Major Challenges for the Department



The Office of Inspector General, in assessing its work at the close
of each semiannual period, develops its list of Top 10 Manage                          TOP 10 MANAGEMENT CHALLENGES
ment Challenges the Department faces. Each challenge meets                              1.	 Strengthen	Department-wide	information	security.
one or more of the following criteria: (1) it is important to the                       2.	 Effectively	manage	departmental	and	bureau	acquisi
Department’s mission or the nation’s well-being, (2) it is com                              tion	processes.	

plex, (3) it involves sizable resources or expenditures, or (4) it
                                                                                       	 3.	 Strengthen	internal	controls	over	financial,	program
requires significant management improvements. Because of the
                                                                                             matic,	and	business	processes.
diverse nature of Commerce activities, these criteria sometimes
cut across bureau and program lines. Experience has shown that                         	 4.	 Ensure	that	USPTO	uses	its	authorities	and	flexibilities	
by aggressively addressing these challenges the Department can                               as	a	performance-based	organization	to	achieve	better	
                                                                                             results.
enhance program efficiency and effectiveness; eliminate serious
operational problems; decrease fraud, waste, and abuse; and                            	 5.	 Control	the	cost	and	improve	the	accuracy	of	the	de
achieve substantial savings.                                                                 cennial	census.
                                                                                       	 6.	 Effectively	manage	the	development	and	acquisition	of	
                                                                                             environmental	satellites.
                                                                                       	 7.	 Promote	fair	competition	in	international	trade.
Challenge 1                                                                            	 8.	 Effectively	manage	noaa’s	stewardship	of	ocean	and	
                                                                                             living	marine	resources.	
Strengthen Department-wide                                                             	 9.	 Aggressively	monitor	emergency	preparedness,	safety,	
Information Security                                                                         and	security	responsibilities.
                                                                                       10.	 Enhance	export	controls	for	dual-use	commodities.
In the 4 years since enactment of the Federal Information Security
Management Act (FISMA), government agencies have devoted
significant resources to improving the security of information
stored on their computer systems. The problem is long-standing:                      NOAA had significantly enhanced risk assessments, security plans,
GAO has identified information security as a government-wide                         and testing, while Census’s security plans were more comprehen
high-risk issue every year since 1997. At Commerce, it is the                        sive than in the past.
number one challenge, and has been a material weakness since
2001.                                                                                However, because of the testing deficiencies we still found and
                                                                                     the few packages available for review, we have concluded that
To eliminate the material weakness, Commerce has emphasized                          the Department’s C&A process has not improved to the point
improving its certification and accreditation (C&A) process for                      where authorizing officials have sufficient details about remain
IT systems. In initiating an effort in February 2005 to enhance the                  ing system vulnerabilities to make fully informed accreditation
quality of its C&A packages, its chief information officer issued a                  decisions. Therefore, we concluded that the IT security material
plan to produce acceptable quality C&A packages for all national-                    weakness remains.
critical systems and some mission-critical systems by the end of
FY 2005 and for all other systems by the end of FY 2006. Given                       Our forthcoming report on our review of NOAA will contain rec
the plan, our approach to the C&A portion of our 2005 FISMA                          ommendations for improving that agency’s C&A packages and its
evaluation was to review all improved packages available by Au                       process for managing the correction of security weaknesses. These
gust 31, 2005. Only five were ready—three from NOAA and two                          recommendations may inform efforts Department-wide.
from Census2—but these showed some noteworthy improvements.
                                                                                     Commerce officials have continued to make clear their commit
                                                                                     ment to working with us to strengthen the C&A process. At the
2
 The schedules provided by the Department’s CIO Office in June indicated that
more than 20 C&A packages would be available by August 31, 2005. The CIO
                                                                                     request of the Department’s acting CIO, we presented the findings
subsequently reported that by September 30, C&A packages for all national-critical   from our 2005 FISMA evaluation of C&A packages at the Decem
systems and over half of the mission critical-systems had been improved.             ber CIO Council meeting. The meeting gave us the opportunity



March 2006/Semiannual Report to Congress                                                                                                             
Major Challenges for the Department




                                                                      FISMA Focus on Authenticating
    Excerpt: Management of                                            Remote Users
    Federal Resources, OMB
    Circular A-130                                                    Another focus of our FY 2005 work was e-authentication risk
                                                                      assessments for selected Department systems. E-authentication
    Safeguards.	agencies	shall:	                                      is the process of electronically verifying the identities of users
                                                                      accessing government services over the Internet and is crucial to
         (a)	Ensure	that	information	is	protected	commensurate	
                                                                      the Department’s ability to properly authorize access to data and
         with	the	risk	and	 magnitude	 of	the	harm	that	would	
         result	from	the	loss,	misuse,	or	unauthorized	access	        hold users accountable for their actions.
         to	or	modification	of	such	information;	
                                                                      As part of our review, we evaluated the quality of NOAA’s e-
         (b)	Limit	the	collection	of	information	which	identifies	
                                                                      authentication risk assessment process for its Search and Rescue
         individuals	to	that	which	is	legally	authorized	and	
                                                                      Satellite Aided Tracking System (SARSAT)—the U.S. portion of
         necessary	for	the	proper	performance	of	agency	
         functions;	                                                  an international program that uses satellites to coordinate search and
                                                                      rescue activities. We identified a number of problems with the risk
         (c)	Limit	the	sharing	of	information	that	identifies	        assessment as well as ways to strengthen the process and minimize
         individuals	or	contains	proprietary	information	to	that	     the potential for unauthorized access to critical systems such as
         which	is	legally	authorized,	and	impose	appropriate	         SARSAT, while improving user accountability. We will detail our
         conditions	on	use	where	a	continuing	obligation	to	          findings and recommendations in our next semiannual report.
         ensure	the	confidentiality	of	the	information	exists;	

         (d)	Provide	individuals,	upon	request,	access	to	
         records	about	them	maintained	in	Privacy	act	
         systems	of	records,	and	permit	them	to	amend	such	           Challenge 2
         records	as	are	in	error	consistent	with	the	provisions	
         of	the	Privacy	act.                                          Effectively Manage
                                                                      Departmental and Bureau
                                                                      Acquisition Processes
to discuss the deficiencies, offer technical advice, and answer
                                                                      Commerce spends nearly $2 billion annually on goods and ser
questions from the Department, bureau CIOs, and IT security
                                                                      vices—roughly a third of its annual appropriation—and each year
officers. Our hope is that this interchange will continue and will
                                                                      relies more on contractors to support its mission-critical work.
enable Commerce to eliminate the problems with testing we have
                                                                      Adequate oversight of acquisition planning and execution is es
consistently noted, and to produce packages that fully support
                                                                      sential to ensuring that taxpayer dollars are spent effectively and
system accreditation decisions. The acting CIO is working with
                                                                      efficiently and procurement laws and regulations are followed.
the operating units to identify the packages that will be available
for our FY 2006 FISMA review.
                                                                      The Census Bureau’s contracting for products and services to support
                                                                      2010 decennial operations continues to bear watching. The bureau
C&A Weaknesses at USPTO                                               estimates that 17 percent ($1.9 billion) of its 2010 budget will be
                                                                      spent on contracts for information technology systems, advertis
In a separate FISMA review, we looked at two packages from the        ing, and leases for local office space.3 One key IT program—Field
United States Patent and Trademark Office (USPTO). In FY 2004,        Data Collection Automation (FDCA)—will develop the handheld
we had found this agency’s C&A process to be strong. However,         mobile computers that field staff will use to collect 2010 decennial
our FY 2005 assessment noted shortfalls in USPTO’s monitor            information. This is a critical piece of the bureau’s reengineered
ing of certified and accredited systems. The two systems in our       strategy. Census originally planned to develop this equipment in
review had undergone major changes since their certification          house but determined in early 2004 that it lacked the management
and accreditation in 2004, but the agency had not considered the      and technical resources to do so. It set a late-March 2006 date for
potential impact of the changes on the security of the systems, or    selecting a contractor to develop the system, and planned to use
evaluated the need to reaccredit. In addition, our examination of     information gained during field tests last summer and fall to refine
USPTO’s IT service contracts (see September 2005 Semiannual
Report, page 33) found, among other things, that no contractor IT
systems have been certified or accredited, a situation that could     3
                                                                       http://frwebgate.access.gpo.gov/cgi-bin/useftp.cgi?IPaddress=162.140.64.21&fil
place restricted information at risk.                                 ename=d06465t.pdf&directory=/diskb/wais/data/gao. Accessed April 7, 2006.




                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                                Major Challenges for the Department




contract requirements. However, bureau officials had no process for             conclusion on whether the internal controls are effective, a state
transferring relevant information from the tests to the contract or             ment on identified material weaknesses, and management’s actions
identifying needed changes. So the contract was awarded without                 to correct the weakness. This is no small task. Today’s automated
being modified to reflect lessons learned in the field tests. Should the        environments require rethinking what constitutes effective con
need for changes to requirements emerge as the contract progresses,             trols, how they should be designed and implemented, and whether
the bureau’s costs for this key program are likely to grow.                     additional or alternative documentation and records are needed.
                                                                                OIG is participating in an advisory capacity in the assessment.
We are also reviewing USPTO’s acquisition management pro
cedures and guidelines, looking at a sample of contracts worth                  Although we noted recent improvement in the Department’s
nearly $2.2 billion. Past work by our office and GAO has noted                  management and financial accountability as well as in program
that—in the critical area of automation—the agency sometimes                    and operational effectiveness, our audits continually indicate
took an ad hoc approach to planning and managing acquisition of                 more work is needed to strengthen internal controls over pro
systems, and failed to sufficiently analyze needs, alternatives, and            grams, operations, and administrative areas. Past reviews have
costs. Preliminary findings from our in-progress work indicate that             identified management and general control weaknesses, such as
while USPTO has high-level acquisition policies, it lacks specific              lack of guidelines for using travel and purchase cards; failure to
guidance for contracting officers.                                              recover full costs for reimbursable projects; fiscal and operational
                                                                                weaknesses disclosed in findings of questioned costs in financial
                                                                                assistance awards; and deficiencies in planning, legal review, and
                                                                                open competition in acquisition management.
Challenge 3

Strengthen Internal Controls                                                    Performance Measures
                                                                                and Internal Controls
Over Financial, Programmatic,
and Business Processes                                                          In this semiannual period, we completed an assessment of the
                                                                                Department’s progress implementing the 1993 Government Per
Internal controls are the steps agencies take to make sure their                formance and Results Act (GPRA). (See page 41.) Commerce first
operations are effective, efficient, and in compliance with laws                began implementing GPRA in 1997, and in March 1999, we identi
and regulations. Internal controls also ensure that financial re                fied it as a top management challenge for the Department. From
porting is reliable, and assets are safeguarded from waste, loss,               September 2000 to September 2004, OIG issued eight separate
or misappropriation, according to the Office of Management and                  audit reports covering 45 performance measures reported by six
Budget (OMB). Two documents, the Federal Managers’ Financial                    Commerce bureaus. Those audits uncovered repeated instances
Integrity Act (FMFIA) and the 2004 revision of OMB Circular                     of ambiguous measures that either did not establish clear links
A-123 (Management’s Responsibility for Internal Control), set out               between the activity being measured and the agency’s actions or
internal control requirements for the federal government: Com                   were stated in terms that did not appropriately represent perfor
merce and all federal agencies must define and document major                   mance results. We also found cases of inadequate disclosure, and
financial internal control processes and test key financial controls            we identified insufficient management controls and procedures
to determine whether they are effective as of June 30, 2006.                    for verifying performance information.
In addition, Circular A-123 requires management to provide an as
                                                                                Over the past several years, the Department has improved both the
surance statement on the internal controls over financial reporting
                                                                                utility and integrity of performance information. Because of this,
in its annual Performance and Accountability Report, including a
                                                                                we determined that Commerce and its bureaus had collectively
                                                                                taken sufficient steps to warrant the removal of GPRA implemen
                                                                                tation from the list of Top 10 Management Challenges, although
   Without	effective	controls,	“fraud,	waste,	and	abuse	                        we cautioned that management should continue to give attention
   in	federal	activities	and	programs	lead	to	loss	of	                          to performance reporting.
   billions	of	dollars	of	government	funds,	erode	public	
   confidence,	and	undermine	the	federal	government’s	                          We expect the new federal emphasis on strong internal controls
   ability	to	operate	effectively.”	                                            to create a number of new demands for OIG reviews in the com
                                                                                ing years. For example, new legislation passed in 2005 puts one
               —McCoy	Williams,	Director,	GAO	Financial	Management	and		        of the Department’s smaller agencies in a position of having to
            Assurance,	April	15,	2004,	in	testimony	before	the	Subcommittee		
                                                                                manage an enormous national project with an even larger budget
            on	Government	Efficiency	and	Financial	Management	Committee		
                         on	Government	Reform,	House	of	Representatives         than had been anticipated.




March 2006/Semiannual Report to Congress                                                                                                         
Major Challenges for the Department




                                                                            Challenge 4

                                                                            Ensure that USPTO Uses Its
                                                                            Authorities and Flexibilities
                                                                            as a Performance-based
                                                                            Organization to Achieve
                                                                            Better Results
                                                                            Since March 2000 when the Patent and Trademark Office Efficiency
Source:	nTIa                                                                Act transformed USPTO into a performance-based organization
                                                                            designed to operate more like a private corporation than a govern
New Law Will Alter NTIA’s Future                                            ment agency, OIG has paid close attention to a number of aspects
                                                                            of the organization’s internal management structures. USPTO now
The Digital Television Transition and Public Safety Act of 2005             is responsible for operational functions that once were controlled or
requires the FCC to auction recovered analog spectrum and deposit           monitored at the departmental level. To its credit, the bureau reports
the proceeds into a special fund, which is to be used for programs          it accomplished 75 percent of its key performance measures in FY
within the National Telecommunications and Information Admin                2005, and it has had clean audit opinions for 13 consecutive years.
istration. Funding for the programs authorized by the act exceeds
$2.5 billion, an overwhelming responsibility for an agency of               But USPTO faces numerous challenges, such as a continuing
NTIA’s size. NTIA’s FY 2006 budget allows a little over $18 mil             increase in applications, training about 1,000 newly hired examin
lion for salaries and $22 million for existing grant programs.              ers in Patents and Trademarks, and transitioning to an electronic
                                                                            processing environment. In addition, USPTO’s expanded authority
Successfully implementing the act will constitute a significant             over personnel decisions and processes, procurement, and informa
management challenge for the Department. Managing this level                tion technology operations needs to be fully utilized.
of budgetary growth in a short time period and establishing the
programs required by the act will be difficult. NTIA will also              GAO and OIG Reports
have to oversee the work of contractors who assist in the design            Highlight Concerns
and implementation of the programs. OIG will work closely with
NTIA as it begins to implement the requirements of the act. We              Two reports issued by the Government Accountability Office in
will share lessons learned from our work in other areas to help             June 2005 raised a number of management concerns. GAO reported
the agency design strong, well-structured programs and minimize             that USPTO does not have a fully integrated, electronic patent pro
opportunities for fraud.                                                    cess planned despite spending more than $1 billion on the project




Newly hired patent examiners attend an orientation class. USPTO is hiring about 1,000 new patent examiners to handle increases in applications.
Source:	USPTo




                                                                                       U.S. Department of Commerce/Office of Inspector General
                                                                                                                     Major Challenges for the Department




from 1983 through 2004.4 In addition, recent increases in both the
complexity and volume of patent applications have lengthened
the time it takes to process patents and raised concerns about the
validity of the patents USPTO issues.5 The report also concluded
that USPTO’s difficulty attracting and retaining qualified staff stems
from an ineffective management strategy for communicating and
collaborating with examiners, outdated assumptions about pro
duction quotas and performance awards, and a lack of mandatory
continued technical training for patent examiners.

OIG has issued nearly a dozen reports examining problems at
USPTO since 2001. We have delved into systemic human resources
and program issues, and have examined USPTO’s computer sys
tems security. A recent OIG evaluation found that while most
USPTO contracts include information technology security clauses,
important requirements are not implemented properly or are not
enforced.6 Our office is currently reviewing procurement criteria
and procedures that USPTO has been using because it is exempted
by the Patent and Trademark Office Efficiency Act from provisions
of the Federal Property and Administrative Services Act of 1949.

The bureau has taken decisive action to address some problems we
identified in the past, and we have been pleased that USPTO has
been receptive to our recommendations. But ultimately, we believe
the problems USPTO suffers are serious and require the sustained
commitment of senior managers to resolve. OIG will continue to
monitor the bureau’s progress in this transition.
                                                                                  A “lister” with a mobile computer waits at a door for respondents during the
                                                                                  Census Bureau’s 2006 field test in Austin, Texas.

Challenge 5                                                                       Source: oIG


Control the Cost and                                                              This semiannual report details our review of Census’s test of au
Improve the Accuracy of the                                                       tomated address canvassing—an operation designed to keep the
Decennial Census                                                                  bureau’s address file and digital map database current and complete
                                                                                  (see page 19). During address canvassing, temporary staff (called
At an estimated cost of $11.3 billion, the 2010 census will be the                “listers”) equipped with handheld computers go into the field to
most expensive decennial to date, even after adjusting for infla                  verify, update, add, or remove addresses; add and delete streets
tion. Key to the Census Bureau’s ability to conduct an accurate,                  to correct computer maps; and annotate address locations on the
comprehensive population count within budget is its reengineered                  maps. The information they collect has a direct bearing on the
design, which relies heavily on automating critical field operations.             bureau’s ability to accurately count the population.
The bureau established a rigorous testing schedule to monitor devel
opment and implementation of the strategy’s key components, iden                  Our review disclosed several problems that undercut the value of
tify problems, and incorporate solutions in time for the decennial.               the canvassing test, most notably, unreliable handheld computer
                                                                                  functions, including its GPS capabilities; inaccurate maps despite
                                                                                  an effort to correct them nationwide; insufficient quality control,
4
 U.S. Government Accountability Office, June 17, 2005. Intellectual Property:
Key Processes for Managing Patent Automation Strategy Need Strengthening,         training, and information sharing; and an inadequate focus on
GAO-05-336. Washington, D.C.: GAO.                                                outreach. In addition, Census had not sufficiently developed proce
                                                                                  dures for deleting nonexistent streets, fully canvassing complicated
5
 U.S. Government Accountability Office, June 2005. Intellectual Property: USPTO
Has Made Progress in Hiring Examiners, but Challenges to Retention Remain,        blocks, updating mobile home sites, identifying rural addresses,
GAO-05-720. Washington, D.C.: GAO.                                                and manually placing map locations on the handheld units when
                                                                                  GPS could not be accessed.
6
 Department of Commerce, Office of Inspector General, Office of Systems Evalu
ation, September 2005. U.S. Patent and Trademark Office: Information Security
in Contracts Needs Better Enforcement and Oversight, OSE-17455. Washington,       Also tested was a new quality control process that incorporates
D.C.: Department of Commerce OIG.                                                 the verification of address deletions made by listers into the



March 2006/Semiannual Report to Congress                                                                                                                   
Major Challenges for the Department




canvassing operation, rather than performing this check after the
operation concludes, as has been the practice. Using this new
procedure, corrections can be made to the address list and maps
prior to Census Day.

Despite this and other enhancements, we concluded that the
bureau only partially achieved its test objectives. Census could
have earned a better return on its investment if it had fielded
more reliable handheld computers, tested areas where the postal
service (rather than the bureau) could deliver questionnaires to
reduce costs, and evaluated outreach efforts aimed at the hard-to
enumerate American Indian population. Based on our observation
of this test, we believe the bureau should assess the viability and
cost-benefits of its decision to canvass nearly every household in
the country in 2010.

We are looking at several more 2006 test operations including
                                                                       NOAA, NASA, and Defense share oversight of NPOESS as members of the
update/enumerate at the Cheyenne River Reservation and Off-            executive committee and manage specific aspects of satellite development,
Reservation Trust Land in South Dakota. During this operation,         acquisition, and integration within the Integrated Program Office.
which is used in communities where residents are less likely to        Source: http://www.esipfed.org/business/library/meetings/th_fed_meeting/docu-
return a completed questionnaire, enumerators update the address       ments/Mike_Haas_Pres.ppt#283,5,Tri-Agency	Management	Structure
lists and maps, and interview a resident to complete a questionnaire
for each housing unit. We are also assessing the bureau’s progress
in improving the method for designating which communities              The National Weather Service is the main customer for the satellite
require this type of enumeration. Finally, we are reviewing the        data, which it uses to provide weather, hydrologic, and climate
group quarters operation in Travis County, Texas, which enumer         forecasts and warnings that can be used by other governmental
ates individuals residing in group facilities, such as dormitories,    agencies, the private sector, and the global community.
prisons, and nursing homes.
                                                                       Since 1994 the Department of Commerce, Department of De
                                                                       fense, and National Aeronautics and Space Administration have
                                                                       been working to develop the National Polar-orbiting Operational
Challenge 6                                                            Environmental Satellite System (NPOESS), the nation’s first polar
                                                                       orbiting system that will meet both civilian and defense environ
Effectively Manage the                                                 mental data needs. Slated to replace POES, NPOESS is considered
                                                                       critical to the United States’ ability to maintain the continuity of
Development and Acquisition                                            data required for weather forecasting and global climate monitor
of Environmental Satellites                                            ing through the year 2020.

Over the next 5 years, the Department, through the National Oce        Complex, high-cost acquisitions such as these are extremely dif
anic and Atmospheric Administration, will spend several billion        ficult to manage within cost and schedule goals. Given the billions
dollars in contracts for the purchase, construction, and moderniza     of dollars at stake in the NOAA satellite projects and their impor
tion of environmental satellites.7 Two of these systems, operated by   tance to public safety and economic stability, we believe these
NOAA’s National Environmental Satellite, Data and Information          programs require continuous scrutiny. We have therefore added
Service (NESDIS), collect data to provide short- and long-range        satellite development and acquisition to our list of top challenges
weather forecasts and a variety of other critical environmental and    facing the Department.
climate information. Geostationary Operational Environmental
Satellites (GOES) generate near-term data for the continental
                                                                       NPOESS Program Well Over Budget
United States and Hawaii. Polar Operational Environmental Sat
                                                                       and Behind Schedule
ellites (POES) provide full global data for short- and long-range
forecast models, climate modeling, and various other purposes.
                                                                       We are currently conducting an audit of the NPOESS program,
                                                                       which focuses on how the contractor and program managers
                                                                       identify and communicate problems to NOAA senior officials,
7
    http://www.osec.doc.gov/bmi/Budget/05APPR/PAR05.pdf, page 210.     and whether the contract’s award fee structure is appropriate and
8
    http://science.hq.nasa.gov/missions/satellite_64.htm.              effective.



                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                          Major Challenges for the Department




Problems developing new sensors for NPOESS have inflated costs          For GOES-R, NOAA is following a three-phase acquisition pro
and delayed the schedule significantly. The original cost estimate      cess—concept development, program definition and risk reduc
of $6.9 billion now stands at $9.7 billion, according to a GAO es       tion, and acquisition and operations. Another big change is that
timate. When the contract for integrating the satellite systems was     NOAA is issuing and managing the prime system contract—a
awarded in 2002, the delivery date for the first NPOESS satellite       role NASA handled in the GOES I-M and follow-on GOES N-P
was March 2008; the current projection is late 2011, at best.           acquisition. For GOES-R, NASA will continue to focus on the
                                                                        technical aspects of the acquisition as the manager of contracts
The Nunn-McCurdy provision of the FY 1982 National Defense              for satellite sensors. The Department will monitor the program
Authorization Act requires the Secretary of Defense to notify           and has approval authority for advancing to the next acquisition
Congress when unit costs for a major acquisition program such           phase. GOES-R is currently in the program definition and risk
as NPOESS grow by 15 percent9 over original baseline estimates.         reduction phase, with contract award for acquisition and operations
Should costs grow by 25 percent, the act requires the Secretary         scheduled for late 2007.
to certify in writing that the program is essential to national secu
rity and the most cost-effective option, the new cost estimate is       In October 2005, NOAA awarded three contracts for the program
reasonable, and a management structure is in place to adequately        definition and risk reduction phase. Each contractor will refine
control unit costs.                                                     the GOES-R concept, design strategies for managing risk, and
                                                                        develop baseline plans for implementation. We intend to monitor
In November 2005, an estimate prepared for NPOESS by Defense            contract activities, identify key early stage program challenges,
showed that cost growth had exceeded 25 percent, triggering the         and determine whether NOAA is taking appropriate measures to
Nunn-McCurdy certification requirement. Failure to provide the          meet them.
certification will terminate DOD’s involvement in the program
and have a devastating impact, given that DOD provides half the
program’s funding.
                                                                        Challenge 7
Despite these huge cost and schedule overruns, the prime con
tractor has collected millions of dollars in incentive payments         Promote Fair Competition
(“award fees”). Our initial audit findings suggest that the award       in International Trade
fee structure is seriously flawed because it allows the contractor to
collect incentive payments even for unsatisfactory performance,         The Department of Commerce accomplishes its goals of promoting
and that management failed to question optimistic program assess        trade, opening overseas markets to American firms, and protect
ments when progress reports indicated serious cost and schedule         ing U.S. industry from unfair competition by imports primarily
overruns.                                                               through the work of the International Trade Administration. Over
                                                                        the past several years, OIG has focused a number of reviews on
Oversight of GOES-R                                                     the Department’s efforts to increase U.S. market opportunities,
Development Under Way                                                   provide assistance to U.S. exporters, and overcome trade barriers
                                                                        in difficult foreign markets.
GOES-R is the next-generation Geostationary Operational En
vironmental Satellite series scheduled for initial launch in 2012.      U.S. Trade with China
This new series will have enhanced sensing capabilities that of
fer an uninterrupted flow of high-quality data to support weather       China has one of the world’s fastest growing economies, making
forecasting, severe storm detection, and climate research vital to      its market an attractive one for U.S. businesses. While U.S. exports
public safety. The fiscal year 2006 through 2010 cost is projected      to China have increased rapidly in the past 3 years, this growth
to be about $2 billion.                                                 has not kept pace with the growth in Chinese imports. Between
                                                                        2002 and 2005, the U.S. trade deficit with China almost doubled,
Building a new satellite series within schedule and budget con          reaching $201.6 billion in calendar year 2005.10 This deficit is a
straints requires a structured acquisition process. When key steps      major concern of the U.S. government and business sectors, both
are skipped, schedule and cost can dramatically increase. In acquir     of which find that China’s intellectual property rights enforcement,
ing the GOES I-M series in the 1980s and 1990s, NOAA made               currency valuation, technical barriers to trade, restrictions on
technical assumptions without assessing ways to reduce risks—a
major reason why completing the acquisition took twice as long
as expected and cost an additional $1 billion.
                                                                        10
                                                                          U.S. Census Bureau, Trade in Goods (Imports, Exports and Trade Balance)
                                                                        with China, see www.census.gov/foreign-trade/balance/c5700.html, accessed
9
    10 USC § 2433.                                                      February 13, 2006.




March 2006/Semiannual Report to Congress                                                                                                      
Major Challenges for the Department




                                                                      Challenge 8

                                                                      Effectively Manage NOAA’s
                                                                      Stewardship of Ocean and
                                                                      Living Marine Resources
                                                                      The National Oceanic and Atmospheric Administration is charged
                                                                      with monitoring the health of our nation’s ocean, coastal, and Great
                                                                      Lakes resources; administering civilian ocean programs; and pro
                                                                      tecting and preserving the nation’s living marine resources through
                                                                      scientific research, fisheries management, enforcement, and habitat
                                                                      conservation. NOAA also will have to deal with impacts from the
                                                                      2005 storms on Gulf Coast aquatic ecosystems for many years to
                                                                      come, from assessing the hurricanes’effects on habitat and fisheries
                                                                      to recording the diminished numbers and redistribution of native
                                                                      species and damage to coastal wetlands.

                                                                      During this semiannual period, we followed up on our audit of
                                                                      the National Marine Fisheries Service’s (NMFS’) preparation of



Source:	http://www.export.gov/china/images/mainpic.gif




trading and distribution rights, and closed regulatory environment
contribute to the continuing U.S.-China trade imbalance.

During this semiannual period, we focused on Commerce’s
trade-related activities in China. (See page 23.) We visited China
in September 2005 to review the U.S. Commercial Service (CS)
offices in Beijing, Shanghai, Guangzhou, Chengdu, and Shenyang.
We evaluated the effectiveness of CS’ coordination with other
Commerce bureaus operating in China, as well as its cooperation
with other governmental and nongovernmental stakeholders. We
also reviewed the post’s claimed export success statistics, efforts
in the area of intellectual property rights and market access, the
new American Trading Center initiative, and other programmatic
and administrative issues.

Overall, we found that the post is generally doing a good job of
providing export assistance to U.S. companies and collaborates
well with its trade partners, other components of the U.S. mis
sion, the Department, and other government agencies, but we did
identify a number of issues that warrant management attention.
We issued 3 recommendations to the Secretary and more than 32
to the Under Secretary for International Trade and Assistant Sec
retary and Director General of CS that we believe will improve
Commerce’s operations in China.
                                                                      The California Central Valley Project is one of the largest water projects in
                                                                      the nation. Begun in 1935 by the federal government to irrigate and protect
                                                                      California’s central valley, it provides water to irrigate 3.7 million acres and
                                                                      its power plants can produce up to 1.4 million kilowatts of electricity.
                                                                      Source:	http://esrpweb.csustan.edu/gis/maps/cvp_swp_sjv.jpg




10                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                         Major Challenges for the Department




a biological opinion for California’s Central Valley Project, one of     The Department of Commerce has a dual responsibility in this
the nation’s major water conservation efforts (see September 2005        arena: not only must it be ready to protect 35,000+ employees and
Semiannual Report, page 21). In response to our audit recommen           hundreds of facilities, but because several Commerce programs
dations, NOAA commissioned two independent scientific reviews            are critical to national preparedness and recovery efforts, it must
of the opinion, both of which found the scientific information           support U.S. efforts to prepare for, respond to, and promote re
used in the biological opinion was not the best available. In light      covery from major disasters. The President’s National Response
of these findings, we asked NOAA officials to submit to us a plan        Plan assigns responsibilities to several Commerce agencies. For
that identifies actions they will take to address the deficiencies and   example, NTIA gives on-call support to the federal emergency
implement the related recommendations made by the independent            communications coordinator and keeps radio frequencies open
review organizations.                                                    during emergencies. NOAA issues long- and short-term forecasts
                                                                         about severe weather events and assesses areas of greatest marine
We also continued our series of reviews of salmon recovery pro           or atmospheric hazard in their aftermath. The Economics and
grams, auditing a tribal subgrantee funded by NOAA’s Pacific             Statistics Administration assesses the economic impacts of major
Coastal Salmon Recovery Fund. Much like the audits we detailed           natural and manmade disasters.
in our 2004 and 2005 semiannual reports, we questioned costs and
noted some administrative weaknesses. (See page 30.)                     We continue to monitor Commerce’s progress in resolving de
                                                                         partmental emergency preparedness and security weaknesses
Future challenges include NOAA’s efforts as a steward of marine          we identified in assessments conducted in 2002 and 2005 (see
resources, the agency’s consultation process, and its management         March 2002 and September 2005 semiannual reports, pages 77
of fisheries and marine mammals.                                         and 37, respectively). Although Commerce has made significant
                                                                         improvement in emergency preparedness to address vulnerabilities,
                                                                         we found, among other things, the need for better departmental
                                                                         guidance and oversight of emergency programs, risk assessments,
Challenge 9                                                              occupant emergency plans, and security forces at its domestic
                                                                         operations, as well as better oversight of security upgrades and
Aggressively Monitor                                                     greater attention to security at its overseas offices.
Emergency Preparedness,
Safety, and Security
Responsibilities                                                         Challenge 10
The damage and disruption                                                Enhance Export Controls
caused by the Gulf Coast hur
ricanes last summer intensified
                                                                         for Dual-use Commodities
scrutiny of federal preparedness
                                                                         The Bureau of Industry and Security (BIS) administers the U.S.
to a level not seen since 9/11.
                                                                         dual-use export licensing and enforcement system designed
These disasters rightly raised se
                                                                         to prevent hostile nations and terrorist groups from acquiring
rious questions about the nation’s
                                                                         technologies and materials that have both civilian and military
readiness to respond to emergen
                                                                         applications. But how effective are existing export controls? And
cies—whether natural or man-
                                                                         how can we prevent export control policies and practices from
made—given the attention and
                                                                         hampering U.S. trade opportunities and competitiveness but still
resources dedicated to security
                                                                         protect U.S. national security and foreign policy interests? Strik
and preparedness by all levels
                                                                         ing an appropriate balance remains a significant challenge for BIS
of government over the past 4
                                                                         and Commerce.
years. They underscored the need
for and responsibility of agencies
                                                                         The National Defense Authorization Act (NDAA) for FY 2000
to maintain robust emergency
                                                                         directed the inspectors general of Commerce, Defense, Energy, and
preparedness programs and di
                                                                         State, in consultation with the directors of the Central Intelligence
saster recovery plans to protect
                                                                         Agency and Federal Bureau of Investigation, to report to Con
their employees, facilities, and
                                                                         gress each year through 2007 on the adequacy and effectiveness
critical operations.
                                                                         of existing export controls and whether they effectively prevent
                                                                         entities of concern from acquiring sensitive U.S. technologies.
Source:	 http://www.dhs.gov/interweb	                                    (The Office of Inspector General at the Department of Homeland
/assetlibrary/nRP_Brochure.pdf




March 2006/Semiannual Report to Congress                                                                                                
Major Challenges for the Department




                                                                            China. According to the former acting Under Secretary for Industry
                                                                            and Security, the security concerns the U.S. has about China stem
                                                                            from the risk of diverting sensitive dual-use items and technology
                                                                            to Chinese military programs as the country carries out its stated
                                                                            plan to modernize its conventional military forces. He further stated
                                                                            that the prospect of “immense potential benefits from expanding
                                                                            trade” heightens such concerns and intensifies the challenges to
                                                                            U.S. dual-use export controls, which were never intended to be
                                                                            connected to economic policy.11

                                                                            Our 2006 review also assessed whether (1) the federal agencies
                                                                            that handle the dispute resolution process for review of license
                                                                            applications for exports to China coordinate effectively, (2) there
                                                                            is potential for diversion of sensitive commodities from Hong
                                                                            Kong to China, and (3) the end-use check program is effective.
                                                                            The 2006 review also examined what activities Commerce bureaus
                                                                            are engaged in pursuant to the 1979 U.S. and China Science and
Components of the high-tech Neutron Spin Echo Spectrometer at the NIST
                                                                            Technology Agreement and whether they are adhering to export
Center for Neutron Research in Gaithersburg, Maryland, are controlled for
national security reasons, but they are tightly encased and could not be    control regulations. (See page 13.)
easily observed.
Source:	nIST
                                                                            Our review determined that the various federal export licensing
                                                                            agencies coordinate adequately during the dispute resolution
                                                                            process for China export license applications, but we identified a
                                                                            number of weaknesses in BIS’ administration of export controls
Security also has participated since its establishment in 2003.) In
                                                                            involving that country. We recommended some actions we believe
addition, NDAA for FY 2001 required the inspectors general to
                                                                            will address these weaknesses. The bureau generally agreed and
report on the status or disposition of recommendations made in
                                                                            outlined some of the work it already is doing to improve them.
prior NDAA reports.
                                                                            As part of our follow-up, we also examined the status of recom
China’s Military Plans Cause Concerns                                       mendations from our six prior reviews and determined that 24
About Export Controls                                                       recommendations remain open, but BIS and other Commerce
                                                                            bureaus have made significant progress on a number of them since
With six of the eight required reviews completed, Commerce                  our March 2005 report. We will continue to monitor BIS’ efforts to
OIG turned its attention to an area of immense concern to meet              improve dual-use export controls in FY 2007, when we complete
the NDAA’s FY 2006 requirement—evaluating the effectiveness                 the last of these reviews.
of U.S. controls on exports of dual-use goods and technology to




                                                                            11
                                                                              Testimony of former Acting Under Secretary for Industry and Security Peter
                                                                            Lichtenbaum at the U.S.-China Economic and Security Review Commission Hear
                                                                            ing, June 23, 2005. Accessed April 4, 2006, at http://www.bis.doc.gov/news/2005/
                                                                            USChinaReview.htm.




                                                                                       U.S. Department of Commerce/Office of Inspector General
                                             Bureau of Industry
                                             and Security

                                NDAA Review Examines Controls Over Dual-Use


T
        he Bureau
                                  Exports to China
        of Industry and
                                         To comply with the FY 2006 reporting requirement of the National Defense Authorization Act
        Security is primarily
                                            for FY 2000, the inspectors general from the departments of Commerce, Defense, Energy,
responsible for administering and
                                               Homeland Security, and State, and the Central Intelligence Agency agreed to conduct a
enforcing the nation’s system for
                                                 review of U.S. export controls for China.12 The U.S. government has serious concerns
controlling exports of sensitive dual-use
                                                   about China’s record of proliferating weapons of mass destruction, the adequacy of its
goods and technologies. BIS’ major func-
                                                     export control policies, and its efforts to obtain sensitive technologies to advance its
tions include formulating and implement-
                                                       military capabilities. In light of those issues, it is critical that the U.S. government
ing export control policy; processing export
                                                        implement effective controls over U.S. exports to China.
license applications; conducting various policy,
technical, and economic analyses; promulgating
                                                           Within Commerce, we evaluated (1) BIS’ export control policies, practices, and
regulations; conducting industry outreach; and en-
                                                            procedures regarding China to determine if they are consistent with relevant
forcing the Export Administration Act and regula-
                                                             laws and regulations; (2) coordination among federal agencies during the
tions. BIS is divided into two units:
                                                             dispute resolution process for export license applications involving China;
                                                              (3) the potential for diversion of sensitive commodities from Hong Kong to
Export Administration implements U.S. export
                                                              China; and (4) BIS’ end-use check program in China and Hong Kong. We
control and nonproliferation laws and policies
                                                              also looked at what activities Commerce bureaus are engaged in pursuant to
through export licensing, commodity classifications,
                                                              the 1979 U.S. and China Science and Technology Agreement and whether
and advisory opinions; technical, economic, foreign
                                                             they are adhering to export control regulations.13
availability, and policy analyses; promulgation of
regulations; and industry outreach. It also conducts
                                                            Our review found that the coordination between the various federal export
various defense industry activities and enforces
                                                           licensing agencies is adequate during the dispute resolution process for export
industry compliance with arms control treaties.
                                                          license applications involving China. We identified some concerns related to
                                                        U.S.-China export control activities in the areas of BIS regulations and policies,
Export Enforcement participates in reviews
                                                       end-use check programs in China and Hong Kong, and efforts to ensure compli-
of export license applications and conducts
                                                      ance with license conditions. We made nine recommendations to address the issues
criminal and administrative investigations
                                                    we identified.
relating to the export control portions
of the Export Administration Act and
                                                 We also reviewed the National Institute of Standards and Technology’s and the National
regulations. It also administers
                                              Oceanic and Atmospheric Administration’s active protocols under the 1979 agreement and
and enforces the antiboycott
                                           found that, overall, both appear to be complying with export control regulations.
provisions of the act and
regulations.
                                           Bureau Response

                      In its response to our report, BIS generally agreed with our recommendations and indicated it is taking steps to
            implement changes and make improvements in a number of areas. NOAA also agreed overall with OIG’s findings although
the report contained no specific recommendations for NOAA. (Office of Inspections and Program Evaluations: IPE-17500)


12
     Although not mandated by the NDAA for FY 2000, the Department of Homeland Security Office of Inspector General participated in this year’s review.
13
  The NDAA for FY 2003 [Public Law 106-398, Section 1207(d)(2)(F)] requires the Commerce Office of Inspector General to assess the extent to which programs and
activities conducted under the Agreement Between the Government of the United States of America and the Government of the People’s Republic of China on Coopera-
tion in Science and Technology, signed in Washington, D.C., on January 31, 1979, as amended and extended are carried out in compliance with U.S. export control laws
and regulations, especially those governing deemed exports.




March 2006/Semiannual Report to Congress	                                                                                                                    13
Bureau of Industry and Security




Cargo traffic crosses from Hong Kong into Shenzhen, China, at the Lok Ma Chau border control point.
Source: OIG



Export Control follow-up                                                            complies with statutory and regulatory requirements, and takes
                                                                                    the cumulative effect of prior technology transfers into consid
Review Identifies Remaining                                                         eration. We also assessed whether the various agencies involved
Open Recommendations                                                                in the export license review process share data and information
                                                                                    and whether the dispute resolution process between the agencies
The FY 2001 National Defense Authorization Act requires the                         works. We reviewed BIS’ interactions with the Australia Group,
Office of Inspector General to report annually to Congress on the                   and procedures for placing newly controlled items on the Com
status of export control recommendations made in prior-year OIG                     merce Control List (CCL). We made 11 recommendations to BIS
reviews. This year’s follow-up covered annual reviews dating back                   and 5 remain open. Those open involve providing clear guidance
to 2000.14 A total of 24 recommendations, including 17 to BIS,                      and more information for licensing officers, developing a method
remain open from all but the March 2000 report. This represents                     to track the cumulative effect of dual-use exports, adding items to
good progress by the Department.                                                    the CCL, requiring entities registered under other U.S. government
                                                                                    agencies to comply with Export Administration Regulations, and
March 2005                                                                          doing more outreach to chemical exporters.

This review evaluated the U.S. export licensing process for                         March 2004
chemical and biological commodities to determine whether current
practices and procedures deter the proliferation of chemical and                    This review looked at whether current deemed export control laws
biological weapons. We looked at whether the process is timely,                     and regulations adequately protect against the transfer of controlled
                                                                                    U.S. technologies to foreign nationals from countries and entities
                                                                                    of concern while they are in the United States. We made a total of
14
  All recommendations from our March 2000 review, Improvements Are Needed           20 recommendations: 7 each to BIS and NIST, 5 to NOAA, and
in Programs Designed to Protect Against the Transfer of Sensitive Technologies to   1 to the Office of the Secretary. These mainly pertained to recom
Countries of Concern (IPE-12454), have been addressed. Open recommendations         mended revisions in export control regulations and policies, as well
remain in the following reports: March 2001, Management of the Commerce Con
trol List and Related Processes Should Be Improved (IPE-13744); February 2002,
                                                                                    as bureau compliance with licensing requirements. During this
BXA Needs to Strengthen its ECASS Modernization Efforts to Ensure Long-Term         reporting period, two recommendations made to BIS were closed.
Success of the Project (IPE-14270); March 2002, Interagency Review of Federal       After studying the country of birth recommendation concerning
Automated Export Licensing Systems (D-2002-074); March 2003, Improvements           BIS’ deemed export licensing policy for certain foreign nationals,
Are Needed to Better Enforce Dual-Use Export Control Laws (IPE-15155); March        BIS decided not to adopt it and we agreed. We also closed our
2004, Deemed Export Controls May Not Stop the Transfer of Sensitive Technology
to Foreign Nationals in the U.S. (IPE-16176); March 2005, The Export Licensing
                                                                                    recommendation concerning BIS’ deemed export-licensing policy
Process for Chemical and Biological Commodities Is Generally Working Well,          for certain foreign nationals because it was no longer applicable.
But Some Issues Need Resolution (IPE-16946).                                        Additionally, partially as a result of OIG recommendations, BIS is



14                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                            Bureau of Industry and Security



formalizing a consultative process to review the deemed exports        dual-use export licensing. Four of our 13 recommendations remain
policy and the other open recommendations.                             open. These involve identifying and securing adequate funding,
                                                                       determining system and security requirements, completing the
NIST completed action on three recommendations during this             target architecture, and selecting a location to house the system.
reporting period. Neither NOAA nor the Office of the Secretary
has completed action on the recommendations pertaining to them.        March 2002
However, both have made progress toward closure.
                                                                       In addition to the February report we issued on BIS, the interagency
March 2003                                                             OIG review team issued a report that contained four recommenda
                                                                       tions for the bureau. One involving establishing a common reposi
This review made 55 recommendations to BIS and 4 to ITA regard         tory for all unclassified licensing data records remains open.
ing their efforts to enforce export control laws and regulations,
including those involving investigative processes, interactions with   March 2001
other law enforcement agencies and the intelligence community,
license determinations, monitoring of compliance with license          Two of 14 recommendations remain open from our review of
conditions, outreach to U.S. exporters, and end-use checks. All        BIS policies and procedures for designing and administering the
but two BIS recommendations have been resolved. Those open             Commerce Control List: work with the National Security Council
deal with unfavorable pre-license check results and automating         to assess and possibly revise commodity classification guidance
license determination referrals. All ITA recommendations have          and procedures, and provide State with copies of the final deter
been resolved.                                                         minations on commodity classifications that it reviews. (Office of
                                                                       Inspections and Program Evaluations: IPE-17935)
february 2002

In this report, we focused on BIS’ plans for and progress toward
modernizing its Export Control Automated Support System for




March 2006/Semiannual Report to Congress                                                                                             15
                                         Economic
                                         Development
                                         Administration
                                  Audit Reveals Problems with Vermont

  T
          he Economic
          Development                   Revolving Loan Fund
          Administration
  was established by the Public                In 1978 a Vermont economic development council received a $720,000 revolving loan
  Works and Economic Development                  fund (RLF) grant to address long-term economic deterioration. No matching funds were
  Act (PWEDA) of 1965 to generate                     required. In July 1999, EDA amended the grant and transferred the assets and admin-
  new jobs, help retain existing jobs, and              istration of the RLF to a nonprofit development corporation. As of December 2004,
  stimulate private investment in economically            the RLF had 15 loans outstanding, with principal balances totaling $274,911.
  distressed regions of the United States. EDA
  continues to fulfill this mission under the au-             We audited the RLF records covering 2002 through 2004. We found that the
  thority of PWEDA, as amended by the Economic                 corporation had failed to comply with a number of grant requirements.
  Development Reauthorization Act of 2004. Based
  on local and regional comprehensive economic                   Conflicts of Interest
  development strategies, EDA works in partnership
  with state and local governments, regional economic             As fund administrator, the corporation extended a $10,000 line of credit
  development districts, public and private nonprofit             to the RLF’s executive director. EDA regulations and award terms and
  organizations, and Indian tribes to help distressed             conditions strictly prohibit loans to program employees and officials.
  communities address problems associated with long-              Corporation officials did not agree that the loan violated EDA conflict of
  term economic deterioration and sudden and severe               interest rules, noting that the executive director is not an employee but is
  economic dislocations, including recovery from the              under  contract to the RLF program to provide part-time services as needed.
  economic impact of natural disasters, the closure              Employee     or not, his position as executive director and his membership
  of military installations and other federal facili-            on  the corporation’s  governing board preclude him from benefiting from
  ties, changes in trade patterns, and the depletion            the RLF   program.
  of natural resources. EDA provides eligible
  recipients with technical assistance, as well as           Also during the audit period, a company owned by the executive director
  grants for public works, planning, training               charged    $1,200 to the RLF for his services to the program, and a firm owned
  and research, and economic adjustment                   by  the  fund’s  president charged more than $24,000 for secretarial services and
  assistance.                                           office  space.  The corporation did not have written contracts supporting the services,
                                                       but did have a written agreement for the office space. In all three cases, however,
                                                   it lacked the required written approvals from EDA allowing these arrangements and
                                                certifying that the benefits to RLF officials were inconsequential.

                                         Excess Cash Reserves and Administrative Noncompliance

                                We found the corporation, as fund administrator, had excess cash reserves in each of the 3 years covered
                         by our audit: more than $94,000 in 2004 and $149,000 for calendar years 2002 and 2003. The corporation some-
             times extended loans without requiring borrowers to complete formal loan applications and failed to comply with numerous
EDA and federal reporting requirements. For example, it did not require formal loan applications in all cases, adequately document loan
packages in RLF files, prepare annual plan certifications, obtain required annual (“single”) audits of RLF funds, or submit semiannual
reports on time, if at all.




March 2006/Semiannual Report to Congress	                                                                                                17
Economic Development Administration



Recommendations                                                         Huge Cash Balances and Little Loan
                                                                        Activity
We recommended that EDA require the grant administrator to (1)
deposit $94,013 into a separate interest-bearing account and remit      For the 3 years covered by our audit (July 2002 through June 2005),
any unused excess funds remaining in the account after 6 months         each RLF carried excess cash reserves that had grown to a total of
to the U.S. Treasury; (2) provide written documentation that the        $4 million—well in excess of the 25 percent maximum allowed
RLF line of credit extended to the executive director has been          by EDA regulations. During the same period, the funds gener
terminated and the loan repaid in full; (3) obtain EDA approval of      ated only five new loans. In response to this finding, the grantee
all related party contracts or repay the RLF for expenses charged       reported that EDA has since allowed it to combine the three RLFs
under those agreements; (4) ensure all RLF loans have formal            and that as of March 2006, it had approved 23 new loans totaling
written loan applications including appropriate supporting docu         $3.8 million, which reduced cash on hand to less than $200,000.
ments and complete files; (5) obtain single audits as required by       EDA, however, said the funds must be maintained and reported
OMB Circular A-133; and (6) correct other administrative findings.      separately and the grantee did not document the new loans or the
(Atlanta Regional Office of Audits: ATL-17285)                          RLF against which they were made.

                                                                        We recommended that EDA direct the Commonwealth to deposit
                                                                        $4,002,983 into a separate interest-bearing account and remit
                                                                        the interest to the U.S. Treasury; use its cash reserves within 6
Pennsylvania RLfs Had $4                                                months to make direct loans or loan guaranties; and return any
Million in Excess Cash                                                  unused funds remaining after 6 months to the federal government.
                                                                        Implementing this recommendation will put more than $2 million
Between August 1982 and January 1994, EDA awarded three                 in federal funds to better use.
grants to the Commonwealth of Pennsylvania to establish revolv
ing loan funds that would address actual or threatened economic         Noncompliance with RLf Administrative
dislocations and promote business development throughout the            Requirements
state. Grant amounts ranged from $1 million to $2.5 million and
required equal match amounts from the Commonwealth.                     Our audit also disclosed that the Commonwealth consistently failed
                                                                        to comply with numerous federal and EDA grant requirements over
EDA amended all three RLF                                               the past 3 years: it did not submit three of six semiannual reports,
grants in 1997 to name the                                              submitted the remaining three late, did not subject the RLFs to
state’s economic development                                            single audits or annually certify that the loan programs are operat
department as the grantee,                                              ing in accordance with grant terms and conditions. The grantee
and again in early 2005 to                                              could not document its handling of three defaulted loans nor the
relax lending requirements and                                          number of jobs saved and created as a result of four active loans.
                                 Source: http://www.pachamber.org/ba/
expand the pool of targeted images/dced-global.gif                      We did, however, find that the grantee had exceeded its goals for
beneficiaries and businesses                                            leveraging private investment for each fund by 100 percent.
eligible for loans. As of June
2005, the RLFs had a combined total of 26 outstanding loans with        To correct the administrative deficiencies noted, we recommended
principal balances totaling $1.3 million.                               that EDA direct the Commonwealth to submit timely semiannual
                                                                        reports and annual plan certifications as required; document its
We conducted a financial and compliance audit of the three RLFs         efforts to collect the three defaulted loans; and include the RLFs
to determine their financial status including fund balance, capital     in the Commonwealth’s single audit report. (Atlanta Regional
utilization, matching funds, program income, and loan collections.      Office of Audits: ATL-17545)
We also assessed whether the grantee had complied with appli
cable federal laws and regulations and RLF terms and conditions,
charged allowable administrative costs, and had achieved RLF
performance goals.




18                                                                                 U.S. Department of Commerce/Office of Inspector General
                                  Economics
                                  and Statistics
                                  Administration

                                 2006 Site Test Produces Mixed Results

T
        he Econom-
                                   Handheld Computer Technology, Training Among
        ics and Statis-
        tics Administration            Problem Areas Noted
analyzes economic develop-
ments, formulates policy options,            The Census Bureau tested another critical component of its reengineered decennial strategy
and produces a major share of U.S.              for the 2010 decennial during this past semiannual period—automated address canvass-
government economic and demographic               ing—in two locations: a portion of Travis County, Texas, which included parts of the city
statistics. The chief economist monitors            of Austin and its suburbs, and the Cheyenne River Reservation and Off-Reservation
and analyzes economic developments and               Trust Land in South Dakota.
directs studies that have a bearing on the
formulation of economic policy. ESA has two             Address canvassing is designed to keep the bureau’s address file and digital map
principal agencies:                                     database current and complete. The operation involves sending temporary staff
                                                         (called “listers”) equipped with handheld computers into the field to verify, up-
Bureau of the Census is the country’s pre-               date, add, or remove addresses; add and delete streets to correct computer maps;
eminent statistical collection and dissemination          and annotate address locations on the maps. The information collected during
agency. It publishes a wide variety of statistical        canvassing has a direct bearing on the bureau’s ability to accurately count the
data about the nation’s people and economy,               population. Census planned to use lessons learned from the 2006 test to gage
conducting approximately 200 annual surveys,             the feasibility and cost of automating the operation, evaluate its impact on data
in addition to the decennial census of the              quality, and refine requirements of the Field Data Collection Automation (FDCA)
U.S. population and the decennial census of             contract before awarding it in March 2006.
industry.
                                                         A multidisciplinary team from our offices of Audits, Inspections and Program Evalu-
Bureau of Economic Analysis prepares,                   ations, and Systems Evaluation reviewed selected aspects of the address canvassing
develops, and interprets the national                  operation. We assessed the functionality of the handheld computers and associated
income and product accounts (sum-                    systems involved in automating the operation, methods for correcting the address lists
marized by the gross domestic                      and maps, quality control processes, outreach activities, and various management, ad-
product), as well as aggregate                    ministrative, and logistical issues.
measures of international,
regional, and state eco-               We concluded that the bureau only partially achieved its test objectives while missing valu-
nomic activity.                     able learning opportunities that might have enhanced preparations for and execution of the 2010
                                 decennial. We also noted that several operational weaknesses we had identified in the 2004 test15 were
                            problems in the address canvassing effort as well.

            Unreliable Handheld Computers

Census had great difficulty developing the handheld computer software for address canvassing. It could not complete software testing
in time to keep to the original canvassing schedule, so it delayed the operation by 1 month to continue pursuing improvements, but still
could not eliminate several serious problems. Bureau officials decided to proceed with canvassing to learn as much as possible about us-
ing the handheld units. As in the 2004 test of automated nonresponse follow-up, the handheld computers suffered from frequent crashes,
data loss, slow performance, and other problems. Because of inadequate software development, the handheld units lacked some key
capabilities—for example, maps on the devices could not be updated to add missing streets, an important function in a rapidly growing

 U.S. Department of Commerce Office of Inspector General, September 2004. Improving Our Measure of America: What the 2004 Census Test Can Teach Us in Plan-
15

ning for the 2010 Decennial Census, Report No. OIG-16949. Washington, D.C.: Commerce OIG.




March 2006/Semiannual Report to Congress	                                                                                                            19
Economics and Statistics Administration



area such as Travis County. And last minute changes to the units
rendered some of the training material out of date, which added
to the listers’ difficulties using the units. As a result, neither test
site reached its production numbers and canvassing was extended
an additional 10 days in an attempt to make the address list as
complete as possible for subsequent 2006 test operations.

GPs Problems

The global positioning system functions for collecting address
coordinates worked only intermittently and were often slow to
activate. The bureau’s preliminary test results suggest that the
coordinate collection software on the handheld units may have
incorrectly calculated address coordinates. This problem, in con
junction with the unreliability of the handhelds, diminishes what
the bureau can learn from the test. GPS functionality needs to be
fixed and tested under real operating conditions before the 2010
decennial to see whether it meets performance and procedural
requirements.

Uncertain Contract Requirements
                                                                          In this square-mile block in South Dakota (outlined), several
A major purpose of the 2006 site test was to firm up FDCA require         roads shown on the map did not exist.
ments for producing the handheld computers. As part of the source         Source: American FactFinder
selection process, contractors built prototypes that have basic
address canvassing capabilities and delivered them to Census in
December 2005. Bureau officials believe that requiring prototypes         test site Limitations
as part of the contract award process increases the likelihood of
having a working system in place by the start of the dress rehearsal      The bureau’s evaluations of the 2000 decennial suggest that tens
for address canvassing, which begins in April 2007. The chosen            of millions of dollars could potentially be saved by increasing
contractor will have to make needed changes to the prototype in           the number of questionnaires provided through routine mail de
the year between contract award (March 2006) and the kickoff of           livery rather than hand delivery. The evaluations recommended
dress rehearsal a year later.                                             researching the expansion of post office delivery of questionnaires,
                                                                          especially outside cities in the Southeast and Midwest and in entire
The FDCA contract was awarded on March 30, before bureau                  states such as Iowa, Wisconsin, Michigan, Ohio, North Carolina,
officials had established a process for transferring relevant 2006        and Virginia. Because it may not be feasible for the same area to
test information to the contract or identifying needed changes            have both hand delivery and postal service delivery, Census needs
to the contract resulting from the test. Thus, the opportunity for        to determine which addresses are sufficiently clustered to shift
competitively negotiating the cost of changes to address canvassing       bureau delivery of questionnaires to postal service delivery. The
requirements prior to contract award has passed.                          impact of such shifts should be tested in the 2008 dress rehearsal
                                                                          to make sure that postal delivery systems and procedures do not
Map Errors and Inadequate Canvassing                                      inadvertently contribute to the undercount (by missing people who
Procedures                                                                had received hand-delivered questionnaires) or the overcount (by
                                                                          delivering to the same address more than once).
Inaccuracies in the handheld computer maps, such as nonexistent
or misplaced roads, caused problems in 9 of the 44 canvassing
efforts we observed: listers in these instances spent excessive time
trying to locate their routes and often did not fully canvass their
assignment area, may have missed housing units, and failed to
correct maps. Ambiguous and incomplete procedures for updating
maps as well as complex block configurations further compromised
listers’ ability to revise address lists.




20                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                          Economics and Statistics Administration



Weaknesses in Quality Control, training,                                 Inadequate focus on Outreach
and Administrative Policies
                                                                         The partnership program—a public awareness effort between Cen
Quality control. Census tested a new quality control process de          sus and public and private organizations—is a key component of
signed to update the address list more quickly. In the past, address     outreach for the decennial. In Census 2000 the bureau hired some
deletions and house number changes were verified after address           690 “partnership specialists,” who worked with more than 140,000
canvassing concluded. In the 2006 test, verification occurred as         organizations to increase participation among hard-to-reach
part of the canvassing operation—as soon as an individual assign         groups. Census spent $142.9 million on the program (2 percent of
ment area was canvassed, quality control listers using handheld          the total cost of the 2000 decennial)16 and expects to implement a
computers verified the data collected. Despite technical difficulties    similar program for the 2010 decennial. But Census has yet to as
with the handheld units, the new procedure worked. But weak              sess new methods for increasing response among American Indians
nesses in lister training and management reporting, as well as the       and other hard-to-enumerate populations, even though the 2006
bureau’s failure to analyze quality control data during the opera        test sites contained such groups. It also has not identified ways to
tion, undercut the overall success of the process.                       collect quantifiable data for evaluating the success of its outreach
                                                                         efforts and lacks a fully functional database containing historical
Training methodology and guidance. We noted a number of                  and logistical details about Census partners—an important resource
other training-related issues, such as the following: (1) the bureau     for partnership specialists looking to develop new or reestablish
used its traditional training approach for temporary staff, in which     old relationships for publicizing the 2010 decennial.
an instructor reads the training manual word-for-word to trainees.
Past evaluations found problems with this approach and suggested         Unclear Rationale for 100 Percent
enhancements to better prepare decennial workers to do their jobs.       Canvassing
(2) Census gave no guidance on how the test sites could compress
the 35-hour daytime training into night classes that encompassed         Problems with the address canvassing operation also raise ques
fewer hours. (3) Less than 5 percent (10 of 216) of listers were         tions about the merits of the bureau’s plan to canvass all housing
assigned to training classes taught by their crew leaders in Travis      units—an estimated 115 million addresses—in 2010 to update
County. Listers who were not taught by their own crew leader             the master address file. Census originally intended to target se
oftentimes had trouble starting fieldwork because their leader was       lected areas for canvassing but abandoned this strategy with little
teaching another class and had not organized team assignments.           explanation. Canvassing the entire nation will increase life-cycle
                                                                         costs of the decennial by an estimated $38 million as compared
                                                                         to Census’s original plan for 2010.17 Census needs to analyze the
                                                                         costs and benefits of 100 percent canvassing and consider whether
                                                                         alternative, less costly strategies are feasible for developing the
                                                                         address list for the 2010 decennial.

                                                                         Missed Opportunities for Improving 2010
                                                                         Operations

                                                                         The bureau only partially achieved its 2006 test objectives for
                                                                         address canvassing: it gained only limited information about
                                                                         automation and related decennial procedures, which diminished
Some Census blocks sprawled across multiple physical streets             the value of the test as a tool for enhancing 2010 operations. We
and landscapes.                                                          believe the bureau could have earned a better return on its invest
Source: American FactFinder                                              ment in the test if the handheld computers had been more reliable
                                                                         and if it had evaluated other aspects of address canvassing, such as
                                                                         options for reducing hand delivery of questionnaires, quantifying
Administrative policies. The overtime policy as implemented in           the impact of its partnership efforts, or improving approaches to
the 2006 test was unclear and may have hampered the effectiveness
of the operation. The policy for cell phone reimbursement made it
difficult for staff to fully recoup the cost of work-related calls. As   16
                                                                           Costs are from October 1997 through September 2000, with $65.1 million spent
in the 2004 test, field supervisors often used more minutes than         on salaries and benefits and the remainder for nonpayroll expenditures such as
                                                                         travel, training, supplies, and postage. From Review of Partnership Program
were eligible for reimbursement.
                                                                         Highlights Best Practices for Future Operations, GAO-01-579, August 2001.
                                                                         17
                                                                           Teresa Angueira, March 1, 2004. “Estimated Life Cycle Costs for the Reengi
                                                                         neered 2010 Census of Population and Housing,” 2010 Census Planning Memo
                                                                         randa Series No. 27. Washington, D.C.: U.S. Census Bureau.




March 2006/Semiannual Report to Congress                                                                                                        21
Economics and Statistics Administration



training. In addition, the bureau should have collected relevant cost   Audits Unresolved for More
and benefit data and considered other alternatives to 100 percent
address canvassing.                                                     than 6 Months

Bureau Response                                                         Its services, Inc.

Census officials concurred with some of our findings and recom          In March 2005, we reported that 3 of the 32 task orders awarded
mendations, but strongly disagreed with others. In particular, the      under a Virginia IT services contract were audited to determine
bureau disagreed that the unreliable handheld computers interfered      whether the costs billed by the firm were reasonable, allowable, and
with the test—maintaining that the 2006 test was intended to assess     allocable under contract terms and conditions and federal regula
the feasibility of the concept of automated address canvassing and      tions. We found that the firm had failed to comply with numerous
that reaching certain production numbers and receiving updates          contract and federal requirements, and we questioned more than
for all aspects of address canvassing were not the real objective.      $8.5 million in direct labor and reimbursable costs.
Census officials also disagreed with our findings that valuable
learning opportunities were missed during the address canvass           Computer & High tech
ing operation and that an analysis of the costs and benefits of 100     Management, Inc.
percent address canvassing is needed. In some cases, Census asked
that we add more context to sections of our report to provide a         We reported in our September 2005 Semiannual Report (page 14)
broader picture of the situation for those not familiar with the        the results of audits of 2 of the 21 task orders for another Virginia
matters discussed.                                                      firm providing IT services to Census. We sought to determine
                                                                        whether the firm had complied with contract terms and conditions
We stand by our finding that the unreliable handheld computers          and federal regulations and had billed Census for work performed
interfered with the 2006 address canvassing operation and conse         in accordance with specifications of the task order. We found that
quently diminished what the bureau could learn from the test. The       the firm failed to comply with numerous contract and federal re
Census 2006 Test Project Management Plan described research             quirements, which caused us to question more than $10.7 million
questions that, if answered, would provide essential information        in direct labor and other reimbursable costs.
for 2010 census planning—including the degree to which automa
tion reduces the time required to collect and process the address       We have suspended audit resolution on both of these contract
canvassing data. The poorly performing handheld units prevented         audits pursuant to an agreement with Census.
the bureau from answering these questions.

With regard to 100 percent canvassing, we believe the bureau
has an obligation to identify the most cost-effective method for
maintaining an address list of requisite quality to support the 2010
decennial goals for accuracy and cost containment. We therefore
reiterate the need for thorough analysis of its decision to canvass
the entire nation. (Offices of Audits, Inspections and Program
Evaluations, and Systems Evaluation: OIG 17524)




22                                                                                 U.S. Department of Commerce/Office of Inspector General
                                 International Trade
                                 Administration

                                    CS China Post Presents Challenges,

T
        he Internation-                Opportunities for Commerce
        al Trade Adminis-
        tration is responsible for              Over the last decade, China has rocketed to the status of third largest trading nation in
trade promotion and policy issues as-             the world and is the United States’ fifth largest export market. China’s average growth
sociated with most nonagricultural goods             rate has been 10 percent since 1993, and the country’s economic and geopolitical
and services. ITA works with the Office of              importance has increased dramatically. Although U.S. exports to China totaled
the U.S. Trade Representative to coordinate               only $41.8 billion in 2005, Chinese imports to the United States exceeded
U.S. trade policy. ITA has four principal units:            $243.5 billion,18 resulting in a U.S. trade deficit with China of approximately
                                                              $201.6 billion. Both the U.S. government and business sectors have great
Market Access and Compliance develops and                       concerns about this trade deficit, as well as China’s intellectual property
implements international economic policies of a bi-              rights enforcement, currency valuation, technical barriers to trade, mar-
lateral, multilateral, or regional nature, and participates        ketplace inequities, restrictions on trading and distribution rights, and
in trade negotiations. Its main objectives are to obtain            closed regulatory environment.
market access for American firms and workers and to
ensure full compliance by foreign nations with trade                  The Department of Commerce has a major presence in China, with
agreements signed with the United States.                             staff from three of its bureaus assigned to that country. The U.S.
                                                                       Commercial Service (CS), which is responsible for providing export
                                                                       assistance to U.S. firms and protecting U.S. business interests, has
Manufacturing and Services undertakes industry trade
                                                                       its largest operation in China, with offices in Beijing, Shanghai,
analysis, shapes U.S. trade policy, participates in trade
                                                                       Guangzhou, Chengdu, and
negotiations, organizes trade capacity building programs,
                                                                       Shenyang. The post employs 17
and evaluates the impact of domestic and international                 officers and 89 local staff, and
economic and regulatory policies on U.S. manufacturers                its budget in fiscal year 2005 was
and service industries.                                               approximately $8.5 million.

Import Administration defends American industry                    We conducted an on-site inspec- Source: Commercial Service
against injurious and unfair trade practices by adminis-          tion of CS’ China post in September
tering the antidumping and countervailing duty laws              2005, focusing primarily on the
of the United States and enforcing other trade laws             post’s management, program operations, and financial and administra-
and agreements negotiated to address such trade               tive practices. During our inspection, we also met with representatives of
practices.                                                  other Commerce organizations in China, including officers representing
                                                          the Bureau of Industry and Security, Market Access and Compliance, Import
U.S. Commercial Service promotes the                     Administration, and the U.S. Patent and Trademark Office. In addition, we
export of U.S. products and helps small               spoke with other U.S. embassy officials, U.S. companies doing business in China,
and medium-sized businesses market                  and nongovernmental business organizations that are among Commercial Service’s
their goods and services abroad. It              trading partners in China.
has 108 domestic offices and
146 overseas posts in 80                   Overall, we found the post is generally doing a good job of providing export assistance to
countries.                            U.S.  companies and collaborates well with its trade partners, other components of the U.S. mis-
                                 sion, the Department, and other government agencies. However, we also identified a number of issues,
                           challenges, and opportunities that warrant the attention of senior CS and departmental managers.



18
  U.S. Census Bureau, Trade in Goods (Imports, Exports and Trade Balance) with China, see www.census.gov/foreign-trade/balance/c5700.html, accessed February
 13, 2006.




March 2006/Semiannual Report to Congress	                                                                                                             23
International Trade Administration



Commerce’s China Mission faces
Unique Management Challenges and
Opportunities

Commerce must be able to depend on a seamless team effort from
its staff in China and its various headquarters units that deal with
China-related issues. Policy disagreements, confusing lines of
authority, logistics issues, and conflicting objectives can hinder
the effectiveness of Commerce’s efforts in China, especially as
the Department’s presence in China and the post’s extremely
high workload and stream of visitors increase. To deal with this
challenge, we recommended the Department develop appropri
ate management lines of authority to ensure that Commerce
organizations cooperate effectively. We also recommended that
Commerce bureaus with positions in China develop effective
human resource strategies that forecast future staffing needs and
provide a continuous supply of qualified officers with adequate
China-specific expertise.                                               China is CS’ largest post, with offices in Beijing, Shanghai, Guangzhou,
                                                                        Chengdu, and Shenyang. The post employs 17 officers and 89 local
                                                                        staff, and its budget in FY 2005 was approximately $8.5 million.
the American trading Center Program Is
                                                                        Source: http://www.export.gov/china/contactusmap.asp
New and Largely Untested

CS is implementing its American Trading Center (ATC) initiative         Cs should Evaluate the future of the
in 14 major commercial centers throughout China in order to pro         Commercial Center Program
vide CS products and services in these cities, which do not have
CS offices. The ATC program was developed in partnership with           The commercial center in Shanghai opened in July 1996 and was
the American Chamber of Commerce in Beijing and the Chinese             one of four commercial centers created under the Jobs Through
Council for the Promotion of International Trade, a state-sanc          Exports Act of 1992.19 The centers were intended to promote pub
tioned Chinese trade organization. At the time of our inspection,       lic-private cooperation on trade promotion and create synergies
the Shanghai consular district had made the most progress on            by collocating CS personnel with federal, state, and private sector
this initiative. Several of the other offices were not yet ready to     trade partners in the centers. The Shanghai Commercial Center
provide services to American companies, and work remains to be          has six trade partners collocated in its facilities—three states, one
done to build the program. We recommended CS complete the               city, and two trade associations. We found that CS Shanghai is not
program’s implementation in the Beijing, Chengdu, Shenyang, and         working closely with most of its collocated partners and has not
Guangzhou consular districts, following the successful model of         integrated them into the post’s operations. CS has closed two of the
Shanghai. Additionally, in the Shanghai and Guangzhou offices, CS       original four centers, and the Shanghai center is expected to close
needs to clearly define the role of all staff that support CS China’s   when the CS office moves into a new U.S. consulate compound
trade show initiative, an effort associated with the ATC program.       in approximately 3 years. We recommended that CS management
We also recommended CS develop Chinese-language marketing               determine a long-term strategy for the entire commercial center
materials for the ATC program and establish clear procedures to         program and improve cooperation with its current commercial
process refunds for unsatisfied ATC customers.                          center partners.

CS also should closely monitor the efforts of the Chinese Council,      Cs’ Unsupported Performance Results
its primary partner for the ATC program, to ensure that the local       Reporting Is a Recurring Problem
subcouncils provide quality services to U.S. companies, because
promoting U.S. imports is not one of that organization’s main           CS’ primary performance goal is to “expand [the] U.S. exporter
objectives. CS should also make sure that U.S. companies using          base.” Measuring progress toward that goal relies on verified
ATC services have realistic expectations of what the service can        numbers of export transactions facilitated by CS among new and
achieve and are given the opportunity to use CS’ export counsel         existing U.S. exporters. We found CS China, with the exception
ing services.                                                           of its Shanghai office, has few verification procedures in place

                                                                        19
                                                                             15 USC § 4723a.




24                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                                 International Trade Administration



to support its claimed performance results, which show dramatic               Commerce Must Address Language and
yearly increases. Our analysis of 126 export success stories for              Communications Issues in China
CS China revealed approximately 44 percent were not adequately
supported by written documentation. Documentation and success                 CS China’s success largely relies on its human resource capabilities
story verification issues are not new. This is a recurring problem            and its ability to effectively utilize those resources and adequately
OIG has noted in its last three CS overseas post inspections—CS               plan for the future of Commerce operations in China. Adequate
Turkey,20 CS Greece,21 and CS India22—and its review of the Pacific           language training for Commerce’s foreign service officers and its
Northwest export assistance center network.23                                 foreign service national employees is critical to effective commu
                                                                              nication at the post and with U.S. exporters. The complex nature
Before performance statistics are presented to Congress and OMB,              of business in China also requires that CS staff have in-depth
CS must confirm they are reliable and meet the reporting guidelines           knowledge of industry sectors, as well as standards and intellectual
outlined in the CS Operations Manual. However, the guidelines in              property rights, in order to effectively serve U.S. exporters. We
the manual are not specific enough to provide adequate guidance               recommended CS provide extended Mandarin language training
on maintaining supporting documentation of the export success                 to CS officers prior to their arrival at the post and provide time
stories prepared by CS trade specialists. We recommended CS                   for in-country language training. CS also should offer regularly
revise the CS Operations Manual to present clear and precise                  scheduled training in English writing, industry sectors, and U.S.
requirements for written documentation and verification of each               business practices to the foreign national staff to improve customer
element of an export success, including written verification from             service.
the client confirming CS assistance, and the reported benefit to the
exporter, the date of the success, and any reported dollar value,             Growing Number of Visitors Is a Major
and inform all staff of the changes. We also recommended that                 Challenge
CS enhance the first- and second-level review process for export
successes and require each individual and office receiving credit             In 2005, CS China cohosted 219 major events, including more
for one to maintain documentation supporting the claim of value-              than 50 trade missions. CS officers and staff are nearly always
added assistance.                                                             required to provide logistical support for these events, which dis
                                                                              tracts from CS’ core products and services. CS does a tremendous
Cs Products and services satisfy Most                                         job of accommodating its visitors and organizing events while still
Clients                                                                       accomplishing its core export-promotion mission. But CS should
                                                                              make several improvements to help the post manage visitors and
CS has multiple products and services to help U.S. exporters reach            events more efficiently, such as evaluating its logistical support
the global market, including customized services and market                   for major events and visits to ensure the most efficient use of re
research, trade events, international partner matching, and one-              sources, and recovering all costs it incurs in supporting certified
on-one counseling. During fiscal years 2004 and 2005, CS China                trade missions.
provided clients more than 600 products and services. We reviewed
customer satisfaction surveys for its products and services, and              Cs China should Use the Established
CS China’s market research reports and marketing materials                    Hiring Process for temporary Workers
used to reach prospective U.S. exporters to China and expand its
potential client base. We found these efforts are satisfying most             CS China, particularly in Beijing and Guangzhou, frequently
of CS’ clients, but CS should continue to monitor the quality of              uses temporary workers to help with the post’s special events,
its products and services.                                                    such as single company promotions and trade delegations. These
                                                                              workers typically work for a short period of time—a few days to
                                                                              a few weeks—and perform such tasks as recruiting attendees, is
20
  U.S. Department of Commerce Office of Inspector General, March 2003. The    suing invitations, setting up appointments, arranging receptions,
Commercial Service Needs to Improve Management of its Operations in Turkey,   and managing RSVP lists. In some cases, temporary workers
IPE-15370. Washington, D.C.: Commerce OIG.
                                                                              are used to update CS’ databases and assist permanent staff with
 U.S. Department of Commerce Office of Inspector General, September 2003.
21
                                                                              general administrative support. The process now used to employ
Generally Sound Operations at Commercial Service Greece Are Compromised by
                                                                              temporary workers is problematic because proper security and
Key Weaknesses, IPE-15804. Washington D.C.: Commerce OIG
                                                                              human resources procedures are generally not being followed.
 U.S. Department of Commerce Office of Inspector General, September 2004.
22
                                                                              We recommended CS China use the established hiring process, in
Commercial Service India: Challenges Remain for Management of a Large and
Economically Diverse Post, IPE-16808. Washington, D.C.: Commerce OIG.         particular the Personal Services Agreement-Temporary authority,
                                                                              for hiring temporary workers to better protect both CS and the
23
  U.S. Department of Commerce Office of Inspector General, March 2004.
Pacific Northwest USEAC Network Generally Operates Well, but Export Suc       temporary employees.
cess Reports Need More Management Scrutiny, IPE-16507. Washington D.C.:
Commerce OIG.




March 2006/Semiannual Report to Congress                                                                                                     25
International Trade Administration



financial and Administrative Management                                In response to our draft report and in subsequent communications,
of the Post Is Generally sound but Could                               ITA indicated that it concurred with most of our recommendations
Be Improved                                                            and discussed numerous actions it has taken or plans to take to
                                                                       address our concerns. On the issue of performance reporting, ITA
CS China’s financial and administrative operations are generally       stated that Commercial Service will be revising its verification
managed well, but there are several areas where management and         procedures in the CS Operations Manual and has reiterated to its
oversight should be improved. The staff has done a good job of         staff the importance of maintaining adequate Client Management
keeping up with the increasing workload. In addition, CS China         System records and other documents that substantiate CS services
hired an administrative manager in Beijing in July 2005 who is         provided. Specifically, CS outlined four methods of verification
improving coordination and management of financial and admin           for export successes and eliminated an element of confusion intro
istrative activities at all CS China posts. However, CS does not       duced by the April 2005 guidance, which stated that “the primary
always follow proper procedures for petty cash and collections,        record is the export success itself.” ITA stated subsequently that
and CS officers do not always properly authorize all critical finan    CS’ export successes will have to be substantiated by one of the
cial and administrative documents. We also found that the post’s       four verification methods, including client confirmation. If one of
inventory records were not adequately managed and reconciled,          the options cannot be satisfied, ITA noted, the reviewing supervisor
and few people use the commercial libraries in Shanghai and            may not approve a draft export success report. ITA also stated that
Guangzhou. We recommended CS require the post to follow petty          CS intends to create standard operating procedures concerning
cash and collection procedures prescribed in the CS Operations         export success writing, the linkage between service provided and
Manual or obtain written policies from the Embassy Management          the benefit to the exporter, and other issues. ITA’s response to the
Section on local policies and guidance for collections to support      draft report further stated that CS will make changes to the export
why it cannot send currency to ITA’s lockbox. In addition, it should   success reporting form and take steps to clarify its export suc
ensure officers sign and date all documents in accordance with         cess guidelines at upcoming conferences with senior commercial
policies and procedures, and update inventory records. We also         officers. ITA anticipates that changes to the form will reinforce
recommended CS evaluate the costs and benefits of maintaining          export success record-keeping requirements and integrate them
commercial libraries in CS Shanghai and CS Guangzhou, and if           with other verification elements. ITA and CS’ planned actions
the costs are not justified, close them.                               should adequately address our concerns.

Response from the secretary and                                        USPTO also commented on our draft report, stating that it would
                                                                       provide intellectual property rights training for CS officers and
ItA                                                                    staff. (Office of Inspections and Program Evaluations: IPE
                                                                       17546)
In his response to our report, the Secretary of Commerce addressed
the need to improve coordination and cooperation between the vari
ous Commerce bureaus with operations in China, stating that he
has asked the Deputy Secretary to chair a quarterly meeting of the
Department’s principal officials who have staff in that country.




26                                                                                U.S. Department of Commerce/Office of Inspector General
                                            minority business
                                            development agency

                                      Audits Unresolved for More Than 6 Months


   T
            he Minority Busi-               Value of MBDA Performance Measures Is
            ness Development                  Undermined by Inappropriate Combining of
            Agency was created to
                                                 Program Results and Unreliable Performance
   help minority-owned and oper-
   ated businesses achieve effective and          Data from MBOC Program
   equal participation in the American
                                                     We audited four of MBDA’s seven FY 2004 performance measures (see September
   free enterprise system, and overcome
                                                     2005 Semiannual Report, page 17). We recommended that the MBDA director take
   the social and economic disadvantages
                                                     concrete steps to ensure that the agency define and report its results clearly and
   that have limited their participation in
                                                     accurately, by using unambiguous definitions of terms, by not combining results
   the past. MBDA provides management                from different programs, and by having minority business operating committees
   and technical assistance to minority              document their performance claims. We also recommended that MBDA regional
   firms upon request, primarily through a           offices and headquarters implement effective verification monitoring and oversight
   network of business development cen-             to ensure the reliability of performance results.
   ters. It also promotes and coordinates
   the efforts of other federal agencies         The agency agreed with all but one of our recommendations—the OIG position that
   in assisting or providing market             in the case of multiple-year awards, MBDA should not claim in its performance results
   opportunities for minority busi-           the value of option years in the year of the initial contract award. We have reaffirmed
   nesses.                                  our recommendation and are currently reviewing MBDA’s revised audit action plan.




March 2006/Semiannual Report to Congress	                                                                                        27
                                  National Oceanic
                                  and Atmospheric
                                  Administration


     T
             he National                   Follow-up Audit Recommends Further
             Oceanic and Atmo-                 Management Enhancements for NOAA
             spheric Administration
     studies climate and global change,
                                                    User Fees
     ensures the protection of coastal oceans
                                                          Each year, NOAA collects millions of dollars from the sale of special products
     and the management of marine resources, pro-
                                                            and services to businesses and the public. During fiscal year 2004, for ex-
     vides weather services, and manages worldwide
                                                               ample, the agency sold $23.1 million worth of goods and services, such
     environmental data. NOAA does this through the
                                                                as permits, aerial photographs, ocean records, hydrographic surveys,
     following organizations:
                                                                  and access to computer databases or files. OMB Circular A-25, User
                                                                    Charges, requires agencies to charge fees that cover their costs of
     National Weather Service reports the weather of the
                                                                     providing the good or service, review and revise those fees as
     United States and provides weather forecasts and warnings
                                                                       necessary, and implement strong internal controls to carefully
     to the general public.
                                                                        manage this revenue.
     National Ocean Service issues nautical charts, performs
                                                                                  In March 2000, we audited NOAA’s handling of user fees and
     geodetic surveys, conducts research, and develops policies on
                                                                                  identified a number of weaknesses in its related internal con-
     ocean mining and energy.
                                                                                   trols.24 We revisited this issue during this semiannual period
                                                                                   to see whether NOAA had implemented the recommendations
     National Marine Fisheries Service conducts a program of
                                                                                   we made in our 2000 audit report.
     management, research, and services related to the protection and
     rational use of living marine resources.
                                                                                  Poor Record Keeping, Fee Review Noted
     National Environmental Satellite, Data, and Information                     in 2000 Audit
     Service observes the environment by operating a national
     satellite system.                                                    We found in our 2000 review that NOAA did not maintain ac-
                                                                         curate, complete information about the user fees it collected. The
     Office of Oceanic and Atmospheric Research conducts               agency also did not enforce its policies for periodically evaluating
     research related to the oceans and Great Lakes, the              these   fees and did not randomly audit fees to ensure they fully cover
     lower and upper atmosphere, space environment, and              costs. We   recommended that NOAA require its line offices to annually
     the Earth.                                                    submit   a list of products and services they sell, the corresponding unit
                                                                 prices, and date of last price review. We also recommended that NOAA
     Office of Marine and Aviation Operations                  conduct random audits of these prices and associated cost computation
     operates NOAA’s ships and aircraft and                 information   to ensure they are accurate and result in full cost recovery, and
     provides NOAA programs with trained                 that the agency   document this review, as required by OMB.
     technical and management person-
     nel from the nation’s seventh                   Latest Audit Finds Progress but Room for Improvement
     uniformed service.
                                          In our follow-up audit, we found that NOAA has implemented our recommendations, but in two
                                   areas has not been stringent enough to optimize internal controls:

Conducting audits. NOAA began conducting random audits in fiscal year 2001 and has repeated them every 2 years since. But its FY
2005 audit did not look at charges for two programs that accounted for $19.5 million, or 84 percent, of its FY 2004 user fee income:
Seafood Inspections ($15.9 million, or 69 percent) and Sablefish Individual Fishing Quotas (IFQ) ($3.6 million, or 15 percent). The


 U.S. Department of Commerce Office of Inspector General, March 2000. Internal Controls Over User Fees Need Improvement, STD-11881. Washington, D.C.: Com-
24

merce OIG.




March 2006/Semiannual Report to Congress	                                                                                                           29
National Oceanic and Atmospheric Administration



intent of our recommendation was to ensure that NOAA veri                          Office issued a revised Product/Service Cost Computation form
fied—through adequate audit coverage—the consistency of its user                   that makes documentation easier: it provides space in the line man
fees and their compliance with federal policy and legislation. But                 agement and budget office review section to document the price
by omitting the sources that account for almost the entire user fee                review and summarize the scope, results, and issues resolved. Line
income, the agency can hardly be sure that these fees are either                   offices were directed to use the form and NOAA placed an elec
consistent or compliant. NOAA finance officials told us they use                   tronic version online to make it easily available to all employees.
statistical sampling to select the user fee documentation they audit               In our follow-up audit, we noted that NOAA has been enforcing
and that forms for these two programs have not yet been included                   compliance with its revised procedures and checking the forms to
in their selections. We believe the Finance Office should modify its               see whether they contain the required review documentation.
sampling methodology to ensure it draws from both programs. The
results of its audits would then be more meaningful and provide                    But even this improved oversight has not enhanced reporting by
greater assurance that user fees are consistent and comply with                    NMFS—the line office that collects user fees for the Seafood In
federal policy and legislation.                                                    spection Program. During fiscal year 2004 NMFS did not provide
                                                                                   the summary on the cost computation form. And the forms were
Documenting cost computation reviews. NOAA has taken sev                           not signed and dated by either the preparer’s supervisor or the
eral steps to document cost computation reviews that budget and                    NMFS budget office reviewer, as is required.
line office personnel perform. In August 2000, it issued revised
user fee policies and procedures directing its offices to document                 NOAA should shore up these internal control weaknesses by
their final review of unit prices charged for individual products                  (1) requiring the Finance Office to modify its random audit sam
and services, and to include in the documentation a brief summary                  pling methodology to include the Seafood Inspection and Sablefish
that describes the scope and results of the review along with any                  IFQ programs, (2) instructing NMFS budget officials to withhold
issues that have or need to be resolved. In May 2001, the Finance                  approval of user fees for any special product or service that lacks
                                                                                   a documented review summary on the standard Product/Service
                                                                                   Cost Computation form or approved alternate form, and (3) ensur
                                                                                   ing NMFS Cost Computation forms or alternatives are signed and
                                                                                   dated by both the preparer’s supervisor and appropriate reviewing
                                                                                   official. (Office of Audits, Business and Science Division: BSD
                                                                                   17612)




                                                                                   salmon Recovery fund Audit
                                                                                   Recommends Washington
                                                                                   tribe Return More than
                                                                                   $500,000
                                                                                   In 2004 the Office of Inspector General launched a series of audits
                                                                                   of projects operating under the Pacific Coastal Salmon Recovery
                                                                                   Fund. This multimillion dollar fund provides federal grants to
                                                                                   Alaska, California, Idaho, Oregon, and Washington and their
                                                                                   resident Native American tribes to recover populations of wild
                                                                                   salmon. Established by Congress and administered by the National
                                                                                   Oceanic and Atmospheric Administration, the program supports
                                                                                   habitat restoration, research, recovery planning, and enhancement
                                                                                   projects for endangered and threatened salmon species.
Fishing charts, nautical charts, and underwater surveys are among the
products NOAA sells to recreational and commercial seafarers.                      In September 2004, we reported the results of our first two audits
                                                                                   of projects operated by member tribes of a Washington state Na
Sources:
                                                                                   tive American commission that received a 5-year, $27.34 million
Nautical chart: chartmaker.ncd.noaa.gov/staff/Mtsgeneral.ppt, accessed April 12,
2006                                                                               recovery fund award to finance salmon projects. The commission
Fishing chart: http://www.oceangrafix.com/images/fullsize.jpg                      allotted equal, no-match subgrants (roughly $1.3 million) to each
Multibeam sonar survey image: http://www.ngdc.noaa.gov/mgg/image/nos3d.jpg         of its 20 member tribes. In our March and September 2005 semi-




30                                                                                            U.S. Department of Commerce/Office of Inspector General
                                                                                                           National Oceanic and Atmospheric Administration



                                                                                                                  benefits, and $108,427 in related indi
                                                                                                                  rect costs.

                                                                                                                  Our audit also revealed that the tribe
                                                                                                                  did not conduct periodic inventories of
                                                                                                                  personal property acquired with award
                                                                                                                  funds, which we estimated to be worth
                                                                                                                  more than $14,000. It had not submit
                                                                                                                  ted four of six performance reports and
                                                                                                                  was late with the remaining two. And
                                                                                                                  finally, its system for handling procure
                                                                                                                  ments did not meet minimum federal
                                                                                                                  requirements: the tribe did not have a
                                                                                                                  procurement policy or manual detailing
                                                                                                                  required standards governing purchases,
                                                                                                                  maintained incomplete and poorly
                                                                                                                  documented acquisition files and histo
                                                                                                                  ries, and did not sufficiently administer
                                                                                                                  contracts to ensure contractors complied
                                                                                                                  with all terms and conditions.
North fork of the Skokomish River below Cushman Dam.
Source: http://wa.water.usgs.gov/realtime/gage_photos.html, accessed April 12, 2006.                             We recommended that NOAA recover
                                                                                                                 the questioned $559,900 and direct the
annual reports (pages 27 and 24, respectively), we detailed audits                     commission to ensure the tribe improves its financial and other
of projects operated by six additional tribes.                                         management systems and complies with reporting requirements.
                                                                                       (Seattle Regional Office of Audits: STL-16657)
During this semiannual period, we completed an audit of a tribal
subgrant that is funding projects to restore salmon habitat and
promote recovery of several species throughout the Skokomish
River Basin—once one of the largest and most productive salmon
habitats in the northwest. One key strategy in the tribe’s plan is to
restore a large tract of wetlands bordering the Skokomish River
to natural salmon habitat. Though the tribe’s award has expired,
tribal officials have said they will continue to work with its proj
ect partners (cities, counties, other tribes, state agencies, private
parties, and regional fisheries enhancement groups) to implement
the salmon recovery plan.

Inadequate financial systems Prompt
Questioned Costs

We found that, in general, the tribe’s work during the 5 years of
the subgrant (2000-2005) complied with NOAA grant objectives
and the intent of the Pacific Coastal Salmon Recovery Program.
But the tribe failed to administer the subgrant in accordance with
federal cost principles and uniform administrative requirements.
For example, its financial management system could not produce
current, accurate financial data for the project’s first 3 years or
reconcile costs charged to the subgrant. The tribe only invoiced
the commission six times in 5 years, often for time frames that did                    Biologists “walk the stream” to survey both the number and types of
not match the periods of performance. These and other financial                        spawning salmon in the tributaries of the Skokomish River in Washington
reporting deficiencies caused us to question a total of $559,900,                      state.
consisting of $369,789 in personnel expenses, $81,684 in fringe                        Source: OIG




March 2006/Semiannual Report to Congress                                                                                                                31
                             National
                             TELECOMMUNICATIONS
                             AND INFORMATION
                             Administration
                                 Audit of Mississippi Educational TV Grant
                                   Recommends Recovering $1.3 Million
                                              An educational television authority in the state of Mississippi received a $1.8 million Public



    T
                                                 Telecommunications Facilities Program grant to convert five public television stations
            he National Telecom-                   from analog to digital technology in 2001. The grant required a matching share of
            munications and Informa-                 $2.7 million and covered the purchase of transmitters, antennas, feed line, and en-
            tion Administration serves                coding, monitoring, and routing equipment.
    through the Secretary of Commerce as
    the executive branch’s principal advisor to           NTIA amended the grant in April 2003, increasing the federal share to
    the President on domestic and international            $2.9 million, and the authority’s match to $4.3 million, bringing total project
    telecommunications and information policy               costs to $7.2 million. The project was completed under budget in December
    issues. NTIA manages the federal use of the             2004, with $454,232 in federal funds remaining. NTIA amended the grant again
    electromagnetic spectrum; provides grants for           after Hurricane Katrina, allowing the grantee to use the remaining funds for
    national information and public broadcasting            repairing hurricane damage, with a completion date of June 30, 2006.
    infrastructure projects; and performs tele-
    communications research and engineering.               We audited grant activity that occurred between October 2001 and December
    It works to enhance citizens’ access to cable          2004 to determine whether the recipient had claimed allowable costs, met per-
    television, phone, and other telecommunica-           formance goals, and complied with
    tions services; and educates state and local        applicable federal laws and regula-
    governments and other entities on ways             tions, and grant terms and conditions.
    to use information technology and tele-          Total costs claimed for the period were
    communications more effectively.                $6,096,403.

                                              We questioned $3,346,957 in costs resulting
                                           from unapproved contract change orders that
                                        each exceeded $100,000 and therefore required
                                     NTIA concurrence; and another $144,066 for work not
                                documented as occurring within the grant period. Though
                         the grantee took exception to these findings, it could not produce
                 evidence to refute them.

 Our audit also noted one minor instance of noncompliance with NTIA requirements for
 labeling equipment and found that the recipient did not consistently file performance
 reports within required time frames. The grantee produced evidence that the equipment
 in question was in fact properly labeled and stated its intent to file progress reports on
 time.

 We recommended that the NTIA grants officer disallow $3,346,957 in questioned costs, Grant funds were used to purchase and
 recover the federal share of $1,327,739, and ensure performance reports are filed on time. install the top-mounted DTV antenna
 (Atlanta Regional Office of Audits: ATL-17529)                                             on this 1,000-foot tower in Greenwood,
                                                                                                Mississippi. The tower itself was erected
                                                                                                years earlier to broadcast analog TV and
                                                                                                radio signals.
                                                                                                Source: OIG




March 2006/Semiannual Report to Congress	                                                                                             33
                                  Technology
                                  Administration

                                     Audit Seeks Return of Nonproject Personnel

  T
         he Technol-
         ogy Administra-                    Costs
         tion serves the needs of
  technology-based industry, advocates             In April 2004, NIST awarded a 3-year ATP cooperative agreement to a Maryland
  federal actions and policies to speed the           company to develop video compression technology for recording high-defini-
  transfer of technology from the laboratory to         tion content on standard DVDs. Total estimated costs of the project are nearly
  the marketplace, and removes barriers for com-           $2.8 million. The federal government’s share is capped at $1,656,466, or
  mercializing new technologies. It includes three           81.4 percent of allowable direct costs. The company received reimburse-
  major organizations:                                         ment of $310,117 for direct costs claimed during the project’s first 7
                                                                months (May through December 2004).
  Office of Technology Policy works in partnership with
  the private sector to develop and advocate national poli-         Our interim financial audit questioned $51,644 in claimed salary and
  cies and initiatives that use technology to build America’s        fringe benefits that were either for hours not allocable to the ATP
  economic strength, promote the creation of high-wage jobs,          project; spent on indirect project tasks, such as general and admin-
  and bring about improvements in our quality of life.                 istrative activities; or otherwise improperly charged. We also ques-
                                                                       tioned $194 in costs incurred prior to the project’s initiation.
  National Institute of Standards and Technology promotes
  U.S. economic growth by working to develop and apply tech-           In addition, we found that the recipient’s financial and property
  nology, measurements, and standards. NIST manages four               management systems did not comply with federal regulations for
  programs: the Advanced Technology Program, the Manufac-              maintaining written procedures, tracking purchases, and taking
  turing Extension Partnership program, the Baldrige National         inventory of equipment purchased with federal dollars.
  Quality Program, and NIST Research Laboratories.
                                                                  We recommended that NIST disallow $51,838 in questioned costs,
  National Technical Information Service is a self-sup-          recover   excess federal disbursements of $29,409, and ensure the
  porting agency that promotes the nation’s economic            recipient,  among other things, (1) implements an adequate method
  growth and job creation by providing access to in-          for  capturing  time directly spent on the ATP project, (2) bills only for
  formation that stimulates innovation and discovery.       that  time, (3)  develops  written financial management procedures, and
  NTIS accomplishes this mission through informa-         (4)  tracks  and  inventories grant-funded purchases as required by federal
  tion collection and dissemination to the public       regulations   and   ATP  program   terms. (Denver Regional Office of Audits:
  and through information and production              DEN-17410)
  services to federal agencies.


                                          Audit Shows New Mexico Company
                                        Should Return More Than $16,000
                         We audited costs claimed by a New Mexico startup
         firm that received a 3-year ATP award to develop optical technol-
ogy for fabricating low-cost fiber network components and subsystems.
Total estimated costs of the project were $1,994,346, to be fully paid by
the government.

The project ran from October 2001 through September 2004, during which time the company received federal reimbursement for the
entire award amount. We questioned $21,255 of costs claimed for salaries, fringe benefits (including relocation costs for a new employee),
travel, supplies, and other expenses that were unsupported or otherwise unallowable under ATP terms and conditions.




March 2006/Semiannual Report to Congress	                                                                                            35
Technology Administration



We also found the recipient did not tag equipment purchased                    Audits Unresolved for More
with project funds and that its financial management system,
though generally adequate, did not meet federal requirements for               than 6 Months
the following reasons: the company lacked written standards of
employee conduct and written procedures for (1) minimizing the                 Massachusetts MEP
time between receipt and disbursement of federal funds; (2) deter
mining whether costs are reasonable, allowable, and allocable to               We are continuing to work with NIST officials toward resolu
the project; and (3) handling purchases made with federal funds.               tion of an MEP cooperative agreement, which we reported on
Without such procedures, the government cannot ensure the re                   in our September 2004 Semiannual Report (page 37) as being
cipient has effective control over program-related funds, property,            unresolved for more than 6 months. Our audit had recommended
and other assets.                                                              that NIST disallow questioned costs of $8,177,606, recover the
                                                                               federal share of $1,599,349, and require the recipient to imple
We recommended that NIST disallow $21,255 in questioned costs,                 ment improvements to its financial reporting system. In its audit
recover $16,414 in excess federal funds disbursed, and direct the              resolution proposal, NIST disallowed $715,097 and reinstated
firm to develop the required written procedures and tag equip                  $7,462,509 in costs questioned in the audit report. In July 2004,
ment purchased with project funds to indicate federal ownership.               after detailed analyses of NIST’s audit resolution proposal and
(Denver Regional Office of Audits: DEN-17496)                                  other documents provided by NIST and the recipient, we advised
                                                                               NIST that we concurred with its decision to disallow $715,097,
                                                                               but did not concur with reinstatement of the remaining $7,462,509.
                                                                               OIG is reviewing a revised audit resolution proposal that NIST
                                                                               submitted in June 2005.
   NIST’s Advanced Technology Program
                                                                               Computer Aided surgery Inc., New
   As part of its efforts to spur technological develop                        york
   ment, NIST administers the Advanced Technology
   Program (ATP) to provide financial assistance through                       An OIG audit of this NIST cooperative agreement (see September
   cooperative agreements, with the goal of transferring                       2004 issue, page 35, and March 2005 issue, page 33—ATL-16095)
   cutting-edge technology to industrial uses. Between                         questioned costs totaling $547,426 in inappropriately charged rent,
   1990 and September 2004, ATP awarded $2.3 billion*                          utilities, and certain salary, fringe benefit, and other expenses,
   in funding to companies to develop promising, high-risk                     because these costs were unallowable, in excess of budgetary
   technologies. Industry has matched this funding with                        limits, or incorrectly categorized. This audit remains unresolved
   $2.1 billion in cost-sharing.                                               because we have postponed NIST’s submission of an audit resolu
   Source: *http://www.atp.nist.gov/factsheets/3-a-1.pdf, accessed April 17,   tion proposal.
   2006




36                                                                                        U.S. Department of Commerce/Office of Inspector General
                               United States Patent
                               and Trademark Office


                                  Auditor Gives Financial Statements a Clean
                                    Opinion


      T
                                             Independent auditor KPMG rendered an unqualified opinion on USPTO’s FY 2005 financial
              he United
                                               statements, finding them fairly presented, free of material weaknesses, and in compliance
              States Patent and
                                                 with all applicable laws and regulations. KPMG reported that USPTO continues to
              Trademark Office
                                                   maintain a sound internal control structure that enables the agency to prepare reliable
      administers the nation’s patent
                                                    financial and performance information.
      and trademark laws. Patents are
      granted and trademarks regis-
                                                     As part of the financial statement audit, KPMG assessed information technology
      tered under a system intended to
                                                     general controls for USPTO systems used to process and maintain key financial
      provide incentives to invent, invest
                                                     data against criteria in GAO’s Federal Information System Controls Audit Manual
      in research, commercialize new
                                                     (FISCAM). Weaknesses were identified in the areas of entity-wide security program
      technology, and draw attention to
                                                     planning and management, access controls, application software development
      inventions that would otherwise
                                                    and change control, and service continuity. The auditor also found that USPTO
      go unnoticed. USPTO also col-
                                                    had resolved three of six outstanding problems identified in the FY 2004 financial
      lects, assembles, publishes, and
                                                   statements audit. (Financial Statements and Accountability Audits: FSD-17434-1
      disseminates technological
                                                  and -2)
      information disclosed in
      patents.




March 2006/Semiannual Report to Congress	                                                                                           37
                                              Department-Wide
                                              Management


     T
            he United                  OIG Finds Serious Deficiencies in Commerce’s
            States Depart-                 Management of the Federal Employees’
            ment of Commerce
     creates the conditions for eco-           Compensation Act Program
     nomic growth and opportunity by
     promoting innovation, entrepreneurship,         The Federal Employees’ Compensation Act (FECA) pays medical and salary benefits
     competitiveness, and stewardship. The            for federal civilian employees, temporary employees, and some contractors and
     Department has three strategic goals:              volunteers who suffer job-related injuries or illnesses that prevent them from
                                                         working. In fiscal year 2005, federal agencies spent more than $2.3 billion in
        Goal 1: Provide the information and tools to      salaries and medical bills for employees hurt on the job—up 10 percent from 5
        maximize U.S. competitiveness.                     years ago—and lost roughly 2 million production days.25 Efforts in the federal
                                                            IG community to resolve concerns regarding the government-wide FECA
        Goal 2: Foster science and technological            program are discussed on page 47 of this report.
     Source: OIG
        leadership by protecting intellectual property,
         enhancing technical standards, and advancing                  The Department of Labor administers the FECA program government-wide—
         measurement science.                                         determining eligibility and distributing benefits—but individual agencies bear
                                                                      the costs for their workers’ compensation recipients and are responsible for
         Goal 3: Observe, protect, and manage the                    supplying Labor with pertinent details about claims, monitoring the status of
         Earth’s resources to promote environmental                 their claimants, and bringing employees back to work as soon as possible. Labor
         stewardship.                                              bills agencies for reimbursement annually via “charge-back” reports that cover
                                                                  benefits disbursed over a 12-month period (July 1 through June 30). The basic
     The Department has also established a                      rate of compensation for injured employees with no dependents is 66.67 percent
     Management Integration Goal that is                       of gross wages and 75 percent for those with dependents.
     equally important to all bureaus:
     Achieve organizational and                           For the period July 1, 2004, through June 30, 2005, Commerce paid more than
     management excellence.                            $14.4 million in workers’ compensation benefits and had roughly 1,275 employees on
                                                    the rolls. Combined FECA costs for Census and NOAA ($5.59 million and $5.45 million,
                                                 respectively) generated about 76 percent of the Department’s total.

                              Commerce’s Office of Human Resources Management (OHRM) and its Office of Occupational Safety
                        and Health (“workers’ compensation office”) administer the program for all bureaus except USPTO.26 Since
             October 2002, a contractor has managed a portion of the FECA workload, and at the time of our review handled approxi-
mately 686 short-term claims and 74 long-term claims. The workers’ comp office is responsible for taking all appropriate steps to obtain
benefits for eligible employees and their survivors, and for working closely with beneficiaries, bureau personnel, and Labor to monitor
cases and return employees to work.27 These activities impact Labor’s decisions on claims, distribution of funds, and ultimately, the
Department’s annual FECA bill.

Our review considered, among other things, how well Commerce (1) minimizes FECA costs by bringing claimants back to work as soon
as possible, (2) verifies the accuracy of benefit payments charged by Labor, (3) oversees its workers’ compensation contractor, and (4)
coordinates its safety and workers’ compensation programs to eliminate workplace conditions that contribute to costly injuries.



25
     http://www.federaltimes.com/index2.php?S=1174163, accessed April 7, 2006.
26
     Since March 2000, USPTO has managed its own workers’ compensation personnel and duties under authority of the 1999 American Inventors Protection Act.
27
     Department Administrative Order (DAO) 202-810, Workers’ Compensation for Federal Employees, November 24, 2004.




March 2006/Semiannual Report to Congress	                                                                                                                    39
Department-wide Management




Source: OIG



Our findings                                                          tractor and related caseload while handling several hundred cases
                                                                      directly—including hundreds of long-term claims. (Commerce
Commerce’s Management of the fECA                                     only transferred a portion of the long-term claims to the contrac
Program Has Been Inadequate                                           tor in April 2004.) This employee was responsible for maintain
                                                                      ing Department records, serving as a resource to departmental
Our review of 231 workers’ compensation cases revealed that both      supervisors and employees, and monitoring and evaluating the
OHRM and its workers’ comp office have not actively managed           contractor’s performance. Frequent changes in top leadership
the program during at least the past 3 years, and even longer for     at the Office of Occupational Safety and Health (the workers’
some cases. These offices failed to challenge questionable charges,   compensation specialist had six different supervisors in 5 years)
adequately track cases, or refer instances of possible FECA fraud     further diminished OHRM’s ability to manage the FECA program
or misconduct to our office. Neither Commerce nor its workers’        in the Department’s best interest.
compensation contractor has routinely pursued claims involving
third party liability. OHRM has not given adequate guidance or        Instead, OHRM has relied on the Department of Labor and a con
comprehensive training to bureau supervisors to help them handle      tractor to oversee cases and make long-term financial decisions on
employee claims, and the Department has no program that focuses       departmental claims. It has not adequately monitored the contrac
on returning claimants to work.                                       tor, maintained proper files, or implemented internal controls. As a
                                                                      result, we identified instances in which Commerce had continued
Much of the poor oversight we noted was rooted in the program’s       making payments to claimants who had been certified as able to
organizational structure and staff resources. From 2002 through       work, made substantial overpayments to some recipients, and
August 2005, only one employee oversaw the Department’s con           continued issuing payments to several claimants who had died.




40                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                              Department-wide Management



Bureaus’ Attention to Workers’ Comp                                    formance and clarify a 2004 amendment related to the long-term
Program Has Been Equally Deficient                                     cases maintained by the contractor.

Department Administrative Order 202-810 assigns specific FECA          Department Response
oversight responsibilities to the individual bureaus, in support of
OHRM. But five Commerce bureaus that together account for 89           Commerce’s Chief Financial Officer and Assistant Secretary for
percent of the Department’s 2005 workers’ compensation costs,          Administration stated that the Department has taken a number of
have relied on the workers’ compensation office to manage their        actions since November 2005 to improve management of the FECA
cases, believing this office had total responsibility for doing so.    program. It now provides training to departmental personnel who
Many bureaus also failed to routinely monitor charge-back reports      oversee the program, is developing a FECA handbook for supervi
they received from the workers’ comp office and the Labor De           sors, identifies claims that may involve third party responsibility,
partment, even though these reports are a key tool for analyzing       is seeking ways to return employees to work as soon as possible,
and minimizing FECA costs. As a result, we found instances in          and has strengthened its interaction with the Labor Department.
which claimants were able to work, but remained on the rolls un
necessarily for years.                                                 The Census Bureau concurred with the recommendations specific
                                                                       to its FECA caseload, but reiterated the position that Commerce
We discovered that even our own office had failed to manage            bureaus have a limited role in managing these cases and that the
several workers’ compensation cases adequately.                        Department is largely responsible for handling them.

Other bureau-related management and operational problems we            USPTO generally agreed with our findings specific to its FECA
identified include the following:                                      program, accepted our recommendations, and listed a number of
                                                                       actions it is taking to strengthen program management. (Office of
Census. Census hires nearly 1 million temporary employees to           Inspections and Program Evaluations: IPE-17536)
conduct the decennial census each decade. Though these workers
are Commerce employees for a limited time only, they are eligible
for workers’ compensation benefits if injured while on the job until
they can return to work. Our review identified 44 active claims
from the 1990 decennial and 183 from the 2000 decennial. Census        Comprehensive Review
and OHRM need to develop a proactive plan for managing future          shows Commerce Has Made
decennial claims and bringing eligible long-term claimants from        Progress Implementing GPRA
previous decennials back to work on 2010 decennial activities
or sooner.                                                             The 1993 Government Performance and Results Act (GPRA) was
                                                                       intended to improve the effectiveness, efficiency, and account
USPTO. The United States Patent and Trademark Office has               ability of federal programs. Reporting valid, accurate information
independently processed and managed its workers’ compensa              is key to that goal, and we have been tracking the Department’s
tion claims since it became a performance-based organization           efforts to capture and report reliable performance data since Com
in March 2000. We found that USPTO’s case management is                merce first began implementing GPRA in 1997. In March 1999, we
inconsistent and the agency needs policies, guidance, and training     identified GPRA implementation as a top management challenge
for supervisors and a detailed performance plan for its workers’       for Commerce, and the issue has been on the list of management
compensation specialist.                                               challenges ever since.

the Department’s fECA Contractor Has a                                 The Department has worked diligently to improve the validity of per
Record of strong Performance                                           formance results reported by all of its bureaus over the past 7 years.
                                                                       In 2005 we determined the issue deserved a thorough review to see
We evaluated the contractor’s performance in meeting 10 of 11          whether GPRA still represents a major challenge for Commerce. We
contract deliverables and found that it had met expectations in        initiated a comprehensive audit to summarize the results of audit
all but 1 area. The contractor has instituted sound operating pro      reports and other OIG work and assess the status of the Department’s
cedures and has capable, well-trained staff handling Commerce          efforts to report useful, reliable performance results.
FECA claims. However, the workers’ comp office did little to
monitor the contractor’s performance until we brought this issue       Eight Reviews in 4 years
to management’s attention during our review.
                                                                       From September 2000 to September 2004, OIG issued eight sepa
In addition, we believe OHRM needs to modify the 2002 contract         rate audit reports covering six bureaus’ efforts to report accurate
to include required metrics for evaluating the contractor’s per



March 2006/Semiannual Report to Congress                                                                                               41
Department-wide Management



and reliable performance information in accordance with GPRA.
The audits covered a total of 45 performance measures reported            AUDIT REPORTS ISSUED ON GPRA
by the Bureau of Industry and Security, the Census Bureau, the
National Telecommunications and Information Administration, the
National Institute of Standards and Technology, the U.S. Patent           Bureau of Export Administration, Final Audit Report
and Trademark Office, and the National Oceanic and Atmospheric            No. FSD-12847, September 2000
Administration. In addition, for this comprehensive audit, we
included International Trade Administration performance mea               National Telecommunications and Information
surement data reviewed by our Office of Inspections and Program           Administration, Final Audit Report No. FSD-12856,
Evaluations.                                                              September 2000

                                                                          U.S. Patent and Trademark Office, Final Audit Re
Recurring Problems Have Been Corrected
                                                                          port No. FSD-14429, March 2002
Our earlier audits had uncovered repeated instances of ambiguous
                                                                          National Institute of Standards and Technology, Final
measures that either did not establish clear links between the activ
                                                                          Audit Report No. FSD-14430, March 2002
ity being measured and the agency’s actions or were stated in terms
that did not appropriately represent performance results. We found
                                                                          National Oceanic and Atmospheric Administration,
cases of inadequate disclosure in which language accompanying
                                                                          Final Audit Report No. FSD-14998, February 2003
performance data was insufficient to place performance results in
an appropriate context. And we identified inadequate management
                                                                          National Oceanic and Atmospheric Administration,
controls and procedures for verifying performance information.
                                                                          Final Audit Report No. FSD-15643, September 2003
Our comprehensive audit found the Department and its bureaus
                                                                          U.S. Census Bureau, Final Audit Report No. FSD
have improved both the utility and integrity of performance in
                                                                          15990, March 2004
formation by
                                                                          National Oceanic and Atmospheric Administration
   •	 Eliminating or rewording performance measures that either
                                                                          Audit Report No. FSD-15989, September 2004
      did not demonstrate a clear link between the activity being
      measured and the agency’s actions or did not clearly dem
                                                                          Minority Business Development Agency, Final Audit
      onstrate what was being measured. For example, of the 26
                                                                          Report No. 17252, September 2005 (This audit was
      performance measures identified as unclear during our eight
                                                                          not included in the scope of the comprehensive au­
      earlier audits, 9 (35 percent) have been discontinued and 10
                                                                          dit because it was outside the defined time frame.)
      (38 percent) have been revised or reworded.

   •	 Improving explanations of performance measures, results,
      and data limitations in Performance and Accountability
      Reports and Annual Performance Plans submitted by the            ment also now rigorously reviews performance information with
      Department to satisfy GPRA requirements.                         bureau managers quarterly.

   •	 Instituting quarterly performance reviews during which           GPRA Implementation Removed from List
      bureau heads and the Deputy Secretary meet to discuss            of top Management Challenges
      performance targets and accomplishments.
                                                                       We are encouraged by these improvements and have determined
   •	 Validating and verifying the performance measure data            that Commerce and its bureaus have collectively taken sufficient
      provided by the bureaus quarterly.                               steps to warrant the removal of GPRA implementation from the
                                                                       list of Top 10 Management Challenges facing the Department. We
In addition, explanations of how performance measures are veri         caution that, despite Commerce’s significant progress in this area,
fied have been improved in GPRA documents. For example, bu             management attention to performance reporting remains impera
reaus have clarified their methods for verifying performance data      tive, particularly as the Department continues to move toward
in Annual Performance Plans. Several bureaus have improved             reporting more outcome-oriented accomplishments.
management controls to ensure the reliability of performance data,
including documenting verification procedures and establishing         There are still many areas where the Department and its bureaus
requirements for maintaining support documentation. The Depart-        can work to enhance the quality of performance information. To




42                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                             Department-wide Management



that end, we recommend the Department and its bureaus use eas          Managers Financial Integrity Act, Commerce determined (and
ily understandable language in measures; have strong, effective        OIG confirmed) that a material weakness related to IT information
management controls over collection and reporting to ensure the        security still exists.
integrity of performance data; and continue to discuss data reli
ability at quarterly performance reviews.                              Accounting for NIst Construction in
                                                                       Progress
Department Response
                                                                       During the FY 2005 audit, NIST notified the auditors that its
The Department’s chief financial officer concurred with our            construction work-in-progress account was overstated by approxi
recommendations and noted that Commerce managers intend to             mately $127 million against the actual value of active projects.
work with the bureaus to implement internal controls that ensure       NIST arranged for independent consultants to analyze the ac
the integrity of performance data in a manner that provides for        count in order to calculate and propose an appropriate adjusting
suitable degrees of consistency and flexibility within each bureau,    entry. KPMG, as part of its audit procedures, reviewed the work
recognizing the wide variation of programs and measures. (Office       performed by the consultants, made additional revisions to their
of Audits: FSD-17444)                                                  proposed adjusting entry, and issued recommendations to NIST
                                                                       addressing controls on management and reporting of construction
                                                                       work-in-progress costs.


Department’s fy 2005                                                   Noncompliance with Anti-Deficiency Act
Consolidated financial                                                 NOAA. We reported in last year’s audit that two reimbursable
statements:                                                            agreements NOAAhad entered into with nonprofit entities contained
Commerce Maintains Clean                                               indemnification clauses. These proved to be in violation of the Anti-
Opinion, But Audit finds Control                                       Deficiency Act because they constituted open-ended obligations
                                                                       of government funds. The Department reported these violations to
and Noncompliance Issues
                                                                       Congress, the President, and the Comptroller General.
The Department received an unqualified opinion on its con
                                                                       Prompted by these findings, NOAA reviewed 2,130 other agree
solidated statements for FY 2005, but the independent auditors
                                                                       ments during this past fiscal year and identified 80 that contained
(KPMG) identified two reportable conditions and one instance of
                                                                       indemnification clauses or provisions involving questionable liabil
noncompliance with the Anti-Deficiency Act.
                                                                       ity. The Department’s Office of General Counsel determined that
                                                                       these agreements also constituted violations of the Anti-Deficiency
Reportable Conditions                                                  Act. They were submitted to OMB for review and referral to the
                                                                       President. Once OMB has notified the President, Commerce will
Information technology Controls                                        report the violations to Congress and the Comptroller General as
                                                                       required by 31 USC § 1517(b).
Effective general IT controls provide assurance that data used to
prepare and report financial information is complete, reliable, and    Economics and Statistics Administration. Also during FY
uncompromised. Maintaining such controls has been an ongoing           2005, the Economics and Statistics Administration identified
challenge for Commerce since 1998. During FY 2005, Commerce            a 1-year agreement it had entered into with a foreign govern
took several positive steps to improve internal controls and address   ment that contained an indemnification clause. As a result of
previously noted weaknesses. The Department continued to focus         this discovery, ESA conducted an investigation and located six
on improving the information security management and techni            prior 1-year agreements with the same government containing
cal control process, and published a major revision of its security    the same clause. The Department’s Office of General Counsel is
program policy and implementation standards.                           reviewing the agreements to determine whether they violate the
                                                                       Anti-Deficiency Act.
Despite these improvements, the auditors again identified weak
nesses in all six general IT control areas outlined GAO’s Federal      Additional Reporting Requirements
Information System Controls Audit Manual—entity-wide security,
access controls, application software development and change           In addition to the FY 2005 consolidated audit, KPMG audited
control, system software, segregation of duties, and service           Commerce’s closing package financial statement reports and ac
continuity. Together these weaknesses constitute a reportable          companying notes (i.e., “special purpose” financial statements),
condition. As part of the FY 2005 evaluation under the Federal




March 2006/Semiannual Report to Congress                                                                                              43
Department-wide Management



and assessed the Department’s compliance with financial reporting
requirements stipulated the by Treasury Financial Manual. The                PREAWARD sCREENING REsULts
auditors rendered an unqualified opinion on the special purpose
statements and found no material weaknesses in internal control                                                            Award
over financial reporting and no compliance matters.
                                                                        Results                                    Number        Amount
KPMG also performed procedures over intragovernmental bal
                                                                        Awards delayed to resolve concerns            3           $558,005

ances reported in the Department’s financial statements, iden
tifying differences in balances reported by Commerce and the
Governmentwide Financial Reporting System. The Department               Special award conditions established          5          $7,583,712

attributed the differences in some cases to its shifting of amounts
into categories required by Treasury, and in other cases, to omis
sions in that system or in the records of agencies with which it
did business. (Financial Statements and Accountability Audits:
FSD-17433-1, -2, -3, -4)                                               Nonfederal Audit Activities
                                                                       In addition to undergoing OIG-performed audits, certain recipients
                                                                       of Commerce financial assistance are periodically examined by
                                                                       state and local government auditors and by independent pub
Preaward financial                                                     lic accountants. OMB Circular A-133, Audits of States, Local
Assistance screening                                                   Governments, and Non-Profit Organizations, sets forth the audit
                                                                       requirements for most of these audits. For-profit organizations
As part of our ongoing emphasis on prevention of fraud, waste,         that receive Advanced Technology Program funds from NIST are
and abuse, we continue to work with the Office of Acquisition          audited in accordance with Government Auditing Standards and
Management, NOAA and NIST grant offices, and EDA program               NIST Program-Specific Audit Guidelines for ATP Cooperative
offices to screen the Department’s proposed grants and cooperative     Agreements, issued by the Department.
agreements before they are awarded. Our screening serves two
functions: it provides information on whether the applicant has        We examined 137 audit reports during this semiannual period to
unresolved audit findings and recommendations on earlier awards,       determine whether they contained any audit findings related to
and it identifies any negative financial or investigative history on   Department programs. For 99 of these reports the Department acts
individuals or organizations connected with a proposed award.          as oversight agency and monitors the audited entity’s compliance
                                                                       with OMB Circular A-133 or NIST’s program-specific reporting
On January 1, 2004, we implemented new policies and procedures         requirements. The other 38 reports are from entities for which other
for our preaward screening process. OIG and the Department de          federal agencies have oversight responsibility. We identified 17
termined that there are several categories of recipients for whom      reports with findings related to the Department of Commerce.
the costs and administrative burden of the screening process may
well outweigh the government’s risk of financial loss. Our new                                                          ATP
policies exempt from review, recipients who (1) receive awards in                                         OMB         Program-
amounts of $100,000 or less; (2) have received financial assistance                                       A-133       Specific
from the Department for 3 or more consecutive years without any          Report Category                  Audits       Audits        Total
adverse program or audit findings; or (3) are units of a state or        Pending (October 1, 2005)           10            79         89
local government.
                                                                         Received                            91           108        199
During this period we screened 80 proposed awards. For 8 of the
awards, we found major deficiencies that could affect the ability of     Examined                            68            69        137
the prospective recipients to maintain proper control over federal       Pending (March 31, 2006)            33           118        151
funds. On the basis of the information we provided, the Depart
ment delayed 3 awards and established special award conditions
                                                                       The following table shows a breakdown, by bureau, of the $179
for 5 awards. (Office of Audits)




44                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                        Department-wide Management



million in Commerce funds audited.


 Bureau                                                     Funds

 EDA                                                      $27,224,217
 NIST*                                                     86,627,493
 NOAA                                                      11,944,561
 NTIA                                                        822,746
 Multiagency                                               49,770,733
 Agency not identified                                      2,675,870
 Total                                                   $179,065,620
* Includes $81,220,475 in ATP program-specific audits.


We identified a total of $1,933,802 in federal questioned costs
and $697,108 in funds to be put to better use. In most reports the
subject programs were not considered major programs; thus the
audits involved limited transaction and compliance testing against
laws, regulations, and grant terms and conditions. The 17 reports
with Commerce findings are listed in Appendix B-1. (Atlanta and
Denver Regional Offices of Audits)




March 2006/Semiannual Report to Congress                                                     45
                                    Office of Inspector
                                    General
                           Symposium Held to Coordinate IG Community’s
                             Oversight of FECA Program


  T
          he mission of the              On March 22, Commerce Inspector General Johnnie E. Frazier and Department of Labor In-
          Office of Inspector               spector General Gordon S. Heddell hosted a half-day symposium on work being done by
          General is to promote               federal inspectors general (IGs) on the Federal Employees’ Compensation Act program.
  economy, efficiency, and effective-           Titled “Building a Coordinated Approach to the IG Community’s FECA-Related Work,”
  ness and detect and prevent waste,             the symposium drew about 150 auditors, inspectors, evaluators, and investigators from
  fraud, abuse, and mismanagement in               inspector general offices across the government and featured speakers from Labor’s
  the programs and operations of the U.S.           Office of Workers’ Compensation Programs (OWCP) and Office of Inspector General,
  Department of Commerce. Through its                and the Commerce OIG.
  audits, inspections, performance evalu-
  ations, and investigations, OIG proposes            Shelby Hallmark, director of OWCP, and Stephanie Semmer, chief of OWCP’s Branch
  innovative ideas and constructive solu-             of Technical Assistance, talked about the office’s efforts to better manage FECA cases
  tions that lead to positive changes for the        and  return people to work, proposed FECA reform legislation, and the roles and re-
  Department. By providing timely, useful,           sponsibilities of both OWCP and employing agencies in containing FECA costs.
  and reliable information and advice to
  departmental officials, the administra-          Elliot P. Lewis, assistant inspector general for audit at the Department of Labor, outlined
  tion, and Congress, OIG’s work helps           a  proposed protocol to encourage a coordinated approach to conducting FECA-related
  improve Commerce management                   work   and to promote collaboration among the various federal offices of inspector general.
  and operations as well as its de-            The  idea  stemmed from ongoing FECA program work by the Federal IG Investigators
  livery of services to the public.          Forum   and  current or proposed audit and inspection work by IGs from Commerce, Interior,
                                          the Social Security Administration,
                                       Veterans Affairs, and the U.S. Postal
                                    Service. Commerce OIG recently released a
                                comprehensive report that detailed serious man-
                           agement deficiencies in the agency’s FECA program.
                    (See page 39.)

The proposed protocol sets up a clearinghouse review process in which the Federal
Audit Executive Council’s audit committee would review potential OIG audits
and evaluations of the FECA program that may be crosscutting or that could result
in recommendations to officials outside the employing agency, such as OWCP.
The protocol outlines suggested roles and responsibilities for OIGs, the type of
FECA program data currently available to federal agencies, OWCP’s rules and
process for releasing FECA program data to outside agencies, and procedures
for how OIGs can request information. When finalized, the protocol will apply
to all OIG FECA-related work beginning in July 2006.

During his opening remarks, Frazier said he had initially been somewhat skepti-
cal about pursuing work on the FECA program, but he now has no doubt that
                                                                                      Department of Commerce Inspector General
it is a real problem at the Department of Commerce as well as at other federal
                                                                                      Johnnie E. Frazier delivered opening and closing
agencies. He said Commerce staff did not effectively manage the program and           remarks at the March 22 symposium on the Federal
that supervisors did not understand their responsibilities. “There is plenty of       Employees’ Compensation Act (FECA) program,
blame to go around, (but) there are also solutions,” Frazier said. He added that      which is commonly called “Workers’ Comp.”
before IGs conclude that problems in the FECA program are the fault of Labor’s        Source: OIG
OWCP, they should first look at how the program operates in their agencies and
their own offices.



March 2006/Semiannual Report to Congress	                                                                                               47
Office of Inspector General




Office of Investigations                                              Attorney Indicted in telemarketing fraud

Our investigative work during this semiannual period focused on       In October 2005, an attorney practicing in Costa Rica was arrested
three major areas that continually make up the greatest part of our   and indicted in the Southern District of Florida on 45 counts of wire
caseload: fraud and corruption involving contractors, grantees, and   fraud and money laundering for his role in a bogus telemarketing
other parties outside the Department; employee fraud, corruption,     scheme in which callers identified themselves as employees of the
and misconduct; and criminal misuse of government computer            Department of Commerce and other federal agencies. An ongoing
resources. The investigations highlighted below are representative    investigation, conducted jointly with the U.S. Postal Inspection
of the results achieved during the past 6 months in these areas of    Service and the Bureau of Immigration and Customs Enforcement
critical concern.                                                     of the Department of Homeland Security, has developed evidence
                                                                      of an international confidence scheme that defrauded individuals
                                                                      using the premise that they had won multimillion dollar cash
Contractor, Grantee, and Other                                        prizes in a national lottery. Targets of the scam were instructed to
External fraud and Corruption                                         make bank-to-bank wire transfers to a bank in Florida so that off
                                                                      shore accounts could be set up for deposit of their winnings. The
Preventing and detecting fraud and abuse in agency programs and       defendant maintained accounts in a Costa Rican bank that had a
operations is a key component of the inspector general mission.       relationship with the U.S. bank. Once funds reached Florida, he
Commerce awards millions of dollars each year in federal con          was able to make withdrawals from his local accounts. To date,
tracts, grants, and cooperative agreements to organizations across    identified victims have given more than $3.5 million to the fraud
the country. With so much at stake, investigating and prosecuting     perpetrators. (Atlanta Field Office)
fraud by contractors and grantees is and always has been a high
priority for the Office of Investigations. In recent years, we have   former Executive Director of Missouri
also seen a notable increase in cases involving other forms of        Economic Development Commission
external corruption that negatively impact the Department. Our        sentenced on Program fraud Conviction
success in these areas during this semiannual period includes
the bribery conviction of a subcontractor on a federally funded       In our September 2005 Semiannual Report (page 42), we reported
construction project and the indictment of a major participant in     the convictions of two former directors of a regional rural economic
an international telemarketing scheme.                                development commission for crimes related to their administra
                                                                      tion of federal grant money, including funds awarded by EDA
subcontractor on EDA Project Convicted                                to operate a revolving loan fund. A joint OIG/FBI investigation
of Bribery                                                            disclosed that the defendants had used about a half million dol
                                                                      lars in federal funds to make unauthorized loans and payments to
In our September 2005 Semiannual Report (page 43), we reported        benefit themselves and companies they controlled. On November
that bribery charges had been filed against a construction company    18, 2005, the former executive director of the commission was
and its owner in connection with an extortion scheme executed         sentenced in U.S. District Court for the Western District of Mis
by a Philadelphia city official. The official was accepting bribes    souri to 24 months’ incarceration and 3 years’ probation, and was
in exchange for issuing minority business certificates for use in     ordered to pay $479,557 in restitution to the federal government.
obtaining contracts on city construction projects. A joint investi    His former assistant director had been previously sentenced to
gation conducted by the FBI, IRS, and inspectors general of the       3 years’ probation and a $5,000 fine for using false documents.
departments of Commerce, Labor, and Transportation disclosed          (Denver Resident Office)
that the company used a certificate provided by the official to
qualify for subcontract work on various construction projects,        Louisiana Businessman sentenced for
including an EDA-funded public works project administered by          Conspiracy Involving Assignment of
the city’s mass transit agency. On October 15, 2005, under the        fictitious Census Contract
terms of a plea agreement, the owner of the construction company
was convicted in U.S. District Court for the Eastern District of      As reported in our September 2005 Semiannual Report (page 43),
Pennsylvania on one count of bribery and one count of submit          a Louisiana businessman was convicted of conspiracy to commit
ting a false tax return. Sentencing was scheduled for May 2006.       bank fraud after a joint OIG/FBI investigation revealed that he
(Alexandria Resident Office)                                          had pledged his company’s interest in the proceeds of a fictitious
                                                                      $18.5 million contract with the Census Bureau as collateral for
                                                                      a $6 million loan from a New Orleans bank. On December 1,
                                                                      2005, the defendant was sentenced in U.S. District Court for the




48                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                                Office of Inspector General



                                                                     Employee fraud, Corruption, and
                                                                     Misconduct

                                                                     Investigating criminal activities and misconduct by Department
                                                                     employees is a staple of the Office of Investigation’s work. During
                                                                     this semiannual period, OI successfully prosecuted multiple cases
                                                                     of time and attendance fraud and theft of government property, and
                                                                     obtained the conviction of one employee for his role in a bribery
                                                                     scheme. In addition, a joint investigation with the Department of
                                                                     Labor OIG resulted in forfeiture of more than $195,000 in workers’
                                                                     compensation benefits by a Commerce beneficiary who failed to
                                                                     report outside earnings.

                                                                     Patent Office Bribery scheme Participants
                                                                     Convicted and sentenced

                                                                     Our last Semiannual Report (page 43) detailed the September
                                                                     2005 bribery conviction of a former supervisory engineering
                                                                     draftsman at USPTO. An OIG investigation had found she had
                                                                     solicited payment from patent applicants in exchange for drafting
                                                                     work to be performed by employees under her supervision. On
                                                                     December 5, 2005, the defendant was sentenced in U.S. District
                                                                     Court for the Eastern District of Virginia to 2 years’ probation
                                                                     and a $1,000 fine.

                                                                     In January 2006, one of her former assistants pleaded guilty to a
                                                                     violation of 18 USC §209 (unlawful supplementation of salary)
                                                                     for his part in the bribery scheme. Sentencing was scheduled for
                                                                     April 2006. (Alexandria Resident Office)
OIG special agents place seized evidence in a secure storage
area.
                                                                     two former Employees sentenced for
Source: OIG
                                                                     theft of Census Debit Cards

Eastern District of Louisiana to 12 months’ imprisonment fol         In our September 2005 Semiannual Report (page 44), we reported
lowed by 3 years’ probation, and was ordered to make restitution     the conviction of a former Census Bureau employee for theft of
of $6,775,344. (Alexandria Resident Office)                          government property, based on the results of an OIG investigation
                                                                     that found she had improperly negotiated 47 debit cards that were
Grantee Official Agrees to Pretrial                                  intended for distribution to the public as an incentive to participate
Diversion and Restitution for false travel                           in Census surveys. On January 19, 2006, the defendant was sen
Claims                                                               tenced in U.S. District Court for the Southern District of Ohio to
                                                                     3 years’ probation and was ordered to pay the government $1,966
An investigation we conducted jointly with the Office of Inspector   in restitution. (Denver Resident Office)
General of the Department of Housing and Urban Development
revealed that between April 1998 and December 2000, the execu        The same issue of our Semiannual Report (page 45) noted the
tive director of a Native American tribe’s community development     arrest of another Census employee for stealing debit cards valued
program made eight duplicative claims for travel reimbursement       at nearly $2,800. On October 14, 2005, the defendant entered
from DOC and HUD grant funds. As a result, he received nearly        into a pretrial diversion agreement in U.S. District Court for the
$4,000 in fraudulent payments. In December 2005, the U.S. At         Southern District of New York. Under the terms of the agreement,
torney for the District of Wyoming executed a pretrial diversion     all pending charges will be dismissed if she successfully completes
agreement with the defendant in which he acknowledged his            1 year of probation and makes full restitution to the government.
responsibility for the false claims and agreed to abide by certain   (Washington Field Office)
conditions and pay restitution in the amount of $3,779 over a 6
month probationary period. (Denver Resident Office)




March 2006/Semiannual Report to Congress                                                                                             49
Office of Inspector General



Investigation of time and Attendance                                  Workers’ Compensation Investigation
fraud at UsPtO Leads to Multiple                                      Leads to Recovery of Benefits
Convictions
                                                                      A supervisory meteorological technician with the National Weather
During the last reporting period, three USPTO employees were          Service was ordered to repay more than $195,000 in workers’
arrested in Virginia on state theft charges as the result of an OIG   compensation benefits as the result of a joint investigation with
investigation into time and attendance fraud at the agency. (See      the Department of Labor OIG, which found that the employee
September 2005 Semiannual Report, page 44.) All three resigned        had failed to report nearly $25,000 in outside earnings on annual
from federal service and have now entered guilty pleas and been       certifications filed over a 5-year period when he was receiving
sentenced on felony convictions in the Circuit Court of the City      benefits. In January 2006, the Department of Labor determined
of Alexandria.                                                        that all benefits received during that period should be forfeited
                                                                      because the employee had knowingly accepted compensation to
In September 2005, a patent examiner pleaded guilty to charges that   which he was not entitled. (Atlanta Field Office)
he had falsely claimed approximately 400 hours of time worked.
On November 10, 2005, the defendant was sentenced to 2 years          senior NtIs Official Reprimanded for
in jail (all but 45 days suspended) and was ordered to perform        Ethics Violations
100 hours of community service and make restitution of $14,393
to the government.                                                    A senior official with the National Technical Information Service
                                                                      received a written reprimand for violating the Standards of Ethi
A legal instruments examiner was convicted of grand larceny in        cal Conduct for Employees of the Executive Branch after an OIG
October 2005 for obtaining nearly $4,000 in salary from USPTO by      investigation found that he had direct involvement in the award and
falsifying his time and attendance records. On December 8, 2005,      oversight of a contract with a company that employed his brother
he was sentenced to 2 years’ incarceration (23 months suspended)      and assigned him to provide contract services to NTIS. In addition
followed by 2 years’ probation and ordered to pay the government      to participating in the evaluation process for the procurement, the
$3,974 in restitution.                                                official authorized payment of 12 separate invoices over an 11
                                                                      month period, which included more than $25,000 in contract work
In November 2005, a second legal instruments examiner was con         completed by his brother. Our investigation also established that
victed of embezzlement, based on his fraudulent receipt of $7,988     the official failed to complete the conflict of interest certification
in unearned salary payments. On January 19, 2006, the defendant       required of employees involved in the award or administration of
was sentenced to 3 years’ incarceration, with 30 months suspended     contracts. (Washington Field Office)
on the condition that he successfully complete 3 years’ supervised
probation and make full restitution to the government.                Census Employee Demoted for
                                                                      Unauthorized Possession of Government
On March 23, 2006, two additional USPTO employees were ar             Property
rested for time and attendance fraud. After initial appearances in
Alexandria Circuit Court, they were both released on their own        An information technology specialist at the Census Bureau was
recognizance pending further proceedings. (Alexandria Resident        demoted from a GS-12 to a GS-11 after government computers
Office)                                                               and printers previously reported as lost or stolen were found at his
                                                                      residence during an OIG investigation. Over the course of about
false Voucher Results in Pretrial Probation                           a year, the employee had removed the equipment from his office
for NOAA Employee                                                     without authorization for his personal use and the use of his family.
                                                                      (Alexandria Resident Office)
On February 17, 2006, an employee of the National Oceanic and
Atmospheric Administration agreed to serve 12 months’ proba
tion and immediately repay $5,913 to the government to resolve
                                                                      Criminal Misuse of Government
theft charges filed in District Court for Montgomery County,          Computers
Maryland, as the result of an OIG investigation that found he had
falsely claimed reimbursement for costs unrelated to his perma        The Office of Investigation’s Computer Crimes Unit continues to
nent change of duty station. The employee’s transfer entitled him     enhance the security and integrity of information technology sys
to reimbursement for certain relocation expenses. However, in         tems in the Department by aggressively investigating IT security
addition to claiming costs paid to move his personal property, he     breaches and criminal misuse of government computers, particu
submitted receipts and received reimbursement for shipping items      larly in the area of Internet child pornography. In addition, the unit
belonging to a friend. (Silver Spring Resident Office)                regularly lends its technical expertise to other OI units, providing
                                                                      forensic media analysis and support in connection with ongoing



50                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                              Office of Inspector General



investigations. Among the unit’s considerable accomplishments        transported back to the United States and transferred to the custody
this semiannual period was its successful pursuit of two child       of the U.S. Marshal’s Service upon his arrival at New York’s JFK
pornography cases, one of which received national attention.         Airport. Following a hearing in federal court in Brooklyn, he was
                                                                     returned to Maryland for trial. The defendant remains in custody
NOAA Employee Indicted on Child                                      and has been suspended without pay from his position at NOAA
Pornography and Exploitation Charges                                 pending the outcome of his case.

On December 21, 2005, a 32-year NOAA employee was indicted           On February 16, 2006, the defendant’s brother was indicted in the
in the District of Maryland for sexual exploitation of children      Eastern District of California for violations of 18 USC §3 (acces
and possession of child pornography after an OIG investigation       sory after the fact) and 18 USC §1001 (false statements to a law
disclosed that he had used government computers to download          enforcement officer) for helping the defendant evade arrest by
sexually explicit images of children. The crime was initially        warning him that we had traced his movements to Canada. Further
detected during the course of routine network security checks by     proceedings are pending. (Computer Crimes Unit)
NOAA computer security specialists who identified hundreds of
thousands of images of nude and seminude children that had been      former Census Employee sentenced on
downloaded across agency networks.                                   Child Pornography Charge

OIG’s subsequent forensic examination of the employee’s home         In our September 2005 Semiannual Report (page 45), we reported
and office computers revealed more than a million pornographic       the conviction of a former statistical mathematician at the Bureau
images of children, and a search of his residence uncovered evi      of the Census on one count of possessing child pornography. An
dence that he was personally involved in the production of child     OIG investigation found that the employee had used his govern
pornography. During the course of the investigation, we shared       ment computer to download hundreds of sexually explicit images
a portion of the data seized with the National Center for Missing    of children. On December 9, 2005, he was sentenced in U.S.
and Exploited Children, which identified 16 known child victims      District Court for the Southern District of Indiana to 27 months’
depicted in the materials and added the victim we had identified     incarceration followed by 3 years’ probation and was ordered to
to its national database.                                            participate in a sex offender treatment program. Upon release
                                                                     from prison, the defendant will also be required to register as a
Rather than face arrest, the defendant fled the country after his    sex offender. (Computer Crimes Unit)
indictment, traveling from his brother’s home in California to
various locations in Canada and Europe. His case was featured
on the January 21, 2006, broadcast of the national television show
America’s Most Wanted. Two days later, he contacted the American
Embassy in Rome and made arrangements to surrender. He was




March 2006/Semiannual Report to Congress                                                                                           51
Office of Inspector General




TABLES AND STATISTICS

 Statistical Overview

  TABLES	                                                                                                                                                                          PAGE

  1. Investigative Statistical Highlights for this Period....................................................................................................................52


  2. Audit Resolution Follow-Up.....................................................................................................................................................53


  3. Audit and Inspection Statistical Highlights for this Period.......................................................................................................53


  4. Audits with Questioned Costs...................................................................................................................................................53


  5. Audits with Recommendations that Funds Be Put to Better Use..............................................................................................54


  APPENDIXES	

  A. Report Types this Period .........................................................................................................................................................55


       A-1. Performance Audits.........................................................................................................................................................55


       A-2. Financial Assistance Audits............................................................................................................................................56


       A-3. Financial Statements Audits............................................................................................................................................57


       A-4. Inspections and Systems Evaluations.............................................................................................................................58


  B. Processed Reports.....................................................................................................................................................................58


       B-1. Processed Reports with Audit Findings..........................................................................................................................59




Table 1. Investigative Statistical Highlights                                                       Audit Resolution and Follow-up
for this Period
                                                                                                    The Inspector General Act Amendments of 1988 require us to
  Criminal	Investigative	Activities                                                                 present in this report those audits issued before the beginning of
                                                                                                    the reporting period (October 1, 2005) for which no management
  Arrests                                                    5
                                                                                                    decision had been made by the end of the period (March 31, 2006).
  Indictments and informations                               7                                      Eight audit reports remain unresolved for this reporting period (see
  Convictions                                                8                                      pages 22, 27, and 36).
  Personnel actions                                          3
  Fines, restitutions, judgments, and other civil .                                                 Department Administrative Order 213-5, Audit Resolution and
      and administrative recoveries                 $7,493,818                                      Follow-up, provides procedures for management to request a
                                                                                                    modification to an approved audit action plan or for a financial
  Allegations	Processed                                                                             assistance recipient to appeal an audit resolution determination.
                                                                                                    The following table summarizes modification and appeal activity
  Accepted for investigation                                                        40              during the reporting period.
  Referred to operating units                                                       30
  Evaluated but not accepted for investigation or referral                          23
  Total	                                                                            93




52                                                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                                                            Office of Inspector General




Table 2. Audit Resolution Follow-Up                                                      Table 3. Audit and Inspection Statistical
                                                                                         Highlights for this Period
     Report Category                            Modifications         Appeals
                                                                                            Questioned	Costs	                                           $4,654,257*
     Actions pending (October 1, 2005)                    0               10
                                                                                            Value of audit recommendations .
     Submissions                                          1                4                that funds be put to better use                                 2,975,478

     Decisions                                            0                4                Value of audit recommendations .
                                                                                            agreed to be management                                         1,266,151
     Actions pending (March 31, 2006)                     1               10
                                                                                            Value of inspection recommendations .
                                                                                            that funds be put to better use                                   54,591

                                                                                         *This number includes costs questioned by state and local government auditors
                                                                                         or independent public accountants.


Table 4. Audits with Questioned Costs

     Report	Category	                                                                            Number	         Questioned	Costs	             Unsupported	Costs

     A. Reports for which no management decision had been made .
        by the beginning of the reporting period                                                      27            $ 27,269,219                   $ 5,958,253

     B.	 Reports issued during the reporting period                                                   18               4,654,257                      1,545,891

          Total reports (A+B) requiring a management .

          decision during the period1
                                                                45              31,923,476                      7,504,144

     C.	 Reports for which a management decision was made .

         during the reporting period2
                                                                26               4,980,032                      2,078,569

          i. Value of disallowed costs                                                                                   685,342                        418,408

          ii. Value of costs not disallowed                                                                            4,294,690                      1,660,161

     D. Reports for which no management decision had been made .
        by the end of the reporting period                                                            19              26,943,444                      5,425,575

1
 Four audit reports included in this table are also included among reports with recommendations that funds be but to better use (see table 5). However, the dollar
amounts do not overlap.

2
    In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.




March 2006/Semiannual Report to Congress                                                                                                                          53
Office of Inspector General




Table 5. Audits with Recommendations that Funds Be Put to Better Use

      Report	Category	                                                                                                       Number	                           Value

      A. Reports for which no management decision had been made .
         by the beginning of the reporting period                                                                                 2                          $ 710,134

      B.	 Reports issued during the reporting period                                                                              7                          2,975,478

           Total reports (A+B) requiring a management decision .

           during the period1                                                                                                     9                          3,685,612


      C.	 Reports for which a management decision was made during .
          the reporting period2                                                                                                   2                           710,134

           i. Value of recommendations agreed to by management	                                                                                               580,809

           ii. Value of recommendations not agreed to by management	                                                                                          187,445

      D. Reports for which no management decision had been made .
         by the end of the reporting period                                                                                       7                          2,975,478

1.
     Four audit reports included in this table are also included among reports with questioned costs (see table 4). However, the dollar amounts do not overlap.

2
     In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.



Definitions of Terms                                                                      Recommendation	 that	 funds	 be	 put	 to	 better	 use: an OIG
Used in the Tables                                                                        recommendation that funds could be used more efficiently if
                                                                                          Commerce management took action to implement and complete
Questioned	cost: a cost questioned by OIG because of (1) an al                            the recommendation, including (1) reductions in outlays; (2) de-
leged violation of a provision of a law, regulation, contract, grant,                     obligation of funds from programs or operations; (3) withdrawal
cooperative agreement, or other agreement or document governing                           of interest subsidy costs on loans or loan guarantees, insurance,
the expenditure of funds; (2) a finding that, at the time of the audit,                   or bonds; (4) costs not incurred by implementing recommended
such cost is not supported by adequate documentation; or (3) a                            improvements related to Commerce, a contractor, or a grantee;
finding that an expenditure of funds for the intended purpose is                          (5) avoidance of unnecessary expenditures identified in preaward
unnecessary or unreasonable.                                                              reviews of contracts or grant agreements; or (6) any other savings
                                                                                          specifically identified.
Unsupported	 cost: a cost that, at the time of the audit, is not
supported by adequate documentation. Questioned costs include                             Management	decision: management’s evaluation of the findings
unsupported costs.                                                                        and recommendations included in the audit report and the issuance
                                                                                          of a final decision by management concerning its response.




54                                                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                               Office of Inspector General




Appendix A. Report Types this Period

  Type	                                                                  Number	of	Reports	        Appendix	Number

  Performance audits                                                             2                        A-1

  Financial assistance audits                                                    8                        A-2

  Financial statements audits                                                    6                        A-3

  Inspections and program evaluations                                            5                        A-4

  Total                                                                         21



Appendix A-1. Performance Audits

  	                                                                      	   	              	             Funds	to	
  	                                                                      	   	              	            Be	Put	to	
  Report	Title		                                                  Report	Number		     Date	Issued		      Better	Use	

  National	Oceanic	&	Atmospheric	Administration

  Opportunities to Further Enhance Controls Over User Fees        BSD-17612-6-0001      01/09/06                —

  Office of the Secretary

  Department of Commerce Has Made Significant Progress, .
  but Additional Opportunities Exist to Improve the Reporting .
  and Utility of Performance Results.                             FSD-17444-6-0001      03/31/06                —




March 2006/Semiannual Report to Congress                                                                            55
Office of Inspector General




Appendix A-2. Financial Assistance Audits

  	                                               	               	          Value	of		
  	                                               	               	          Funds	to	    Federal	     Federal		
  	                                               	             Date	       	Be	Put	to	   Amount	      Amount	
  Report	Title	                            Report	Number	     	Issued	     	Better	Use	 	Questioned	 Unsupported

  Economic	Development	Administration

  The EDC Fund, Inc., VT.                 ATL-17285-6-0001    01/11/06        $ 94,013          —                —

  The Commonwealth of Pennsylvania.       ATL-17545-6-0001    03/28/06       2,001,492          —                —

  National	Institute	of	Standards	&	Technology

  FastVDO LLC, MD.                        DEN-17410-6-0001    12/20/05           —           $ 51,838            —

  Kiara Networks, Inc., NM.               DEN-17496-6-0001    03/15/06           —             21,255         $ 12,590

  House of Artful Expression, NY.         ATL-17744-6-0001    03/31/06         182,865       607,345          607,345

  National	Oceanic	&	Atmospheric	Administration

  Northwest Indian Fisheries Commission, .
  Skokomish Indian Tribe, WA..             STL-16657-6-0009   02/13/06           —           559,900          559,900

  National	Telecommunications	&	Information	Administration

  Mississippi Authority for .
  Educational Television.                 ATL-17529-6-0001    03/31/06           —         1,327,738             —

  Suquamish Indian Tribe, WA.             STL-17482-6-0001    03/31/06           —           152,379            28,138




56                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                  Office of Inspector General




Appendix A-3. Financial Statements Audits

  Report	Title	                                                 Report	Number	            Date	Issued

  Office of the Secretary

  Agreed-Upon Procedures on the FY 2005 Intragovernmental .
  Activity and Balances                                        FSD-17433-6-0004             12/02/05

  Assessment of Information Technology Controls Supporting .
  Department of Commerce’s Financial Management Systems .
  FY 2005 Financial Statement Audit                            FSD-17433-6-0003             12/12/05

  Department of Commerce’s FY 2005 Consolidated .
  Financial Statements..                                       FSD-17433-6-0001             11/10/05

  Department of Commerce’s FY 2005 Special-Purpose .
  Financial Statements                                         FSD-17433-6-0002             11/22/05

  United States Patent and Trademark Office

  Assessment of Information Technology Controls Supporting .
  United States Patent and Trademark Office’s Financial .
  Management Systems                                           FSD-17434-6-0002             01/12/06

  USPTO’s FY 2005 Financial Statements                         FSD-17434-6-0001             11/07/05




March 2006/Semiannual Report to Congress                                                               57
Office of Inspector General




Appendix A-4. Inspections and System Evaluations

  	                                                                                                            	                                   	                      Funds	to	Be		
  Report	Title		                                                                                        Report	Number		                      Date	Issued		              Put	to	Better	Use

  Bureau	of	Industry	and	Security

  U.S. Dual-Use Export Controls for China Need to Be Strengthened                                           IPE-17500                            3/30/06                             —

  Annual Follow-Up Report on Previous Export Control .
  Recommendations, as Mandated by the National Defense .
  Authorization Act for Fiscal Year 2000                                                                    IPE-17935                            3/30/06                             —

  Census	Bureau

  Valuable Learning Opportunities Were Missed.
  in the 2006 Test of Address Canvassing                                                                    OIG-17524                            3/31/06                             —

  International	Trade	Administration

  CS China Generally Performs Well, But Opportunities Exist .
  for Commerce to Better Coordinate Its Multiple China Operations                                           IPE-17546                            3/31/06                             —

  Office of the Secretary

  Management of Commerce’s Federal Workers’Compensation .
  Program Needs Significant Improvements                                                                    IPE-17536                            3/31/06                         $54,591



Appendix B. Processed Audit Reports

The Office of Inspector General reviewed and accepted 137 audit reports prepared by independent public accountants and local, state,
and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better use, and/or non
financial recommendations are listed in Appendix B-1.

  Agency	                                                                                                                                                                               Audits

  Economic Development Administration.......................................................................................................................................35


  National Institute of Standards and Technology*.........................................................................................................................75


  National Oceanic and Atmospheric Administration......................................................................................................................10


  National Telecommunications and Information Administration.....................................................................................................2


  Multiagency................................................................................................................................................................................... 11


  Agency not identified......................................................................................................................................................................4


  Total	                                                                                                                                                                                     137

*Includes 69 ATP program-specific audits.




58                                                                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                               Office of Inspector General




Appendix B-1 - Processed Reports with Audit Findings

  	 	                                              	              	        Value	of	
  	 		                                             	              	       Funds	to	
  	 	                                              	            Date	     Be	Put	to	      Amount	         Amount	
  Report	Title	                             Report	Number	    	Issued	   	Better	Use	   	Questioned	    Unsupported

  Economic	Development	Administration

  City of Aurora, CO.                      ATL-09999-6-2345   03/07/06   $ 413,000           —                 —

  Municipality of San German, PR..         ATL-09999-6-2429   03/07/06       —               —                 —

  City of Mullins, SC.                     ATL-09999-6-2433   03/08/06       —          $ 200,000              —

  Great Falls Development Authority, MT.   ATL-09999-6-2352   03/08/06     185,639           —                 —

  Operation Hope, Inc., CA.                ATL-09999-6-2279   03/29/06       —             68,173              —

  National	Institute	of	Standards	&	Technology	

  Chesapeake PERL, Inc., MD.               ATL-09999-6-2170   10/26/05       —             28,913              —

  Chiral Photonics, Inc., NJ.              ATL-09999-6-2029   10/26/05       —             40,135              —

  HandyLab, Inc., MI.                      ATL-09999-6-2127   10/26/05       —             47,258              —

  VorCat, Inc., MD.                        ATL-09999-6-2037   10/26/05       —             49,884              —

  AMTEK Research International , OR.       ATL-09999-6-2173   12/30/05       —             16,587              —

  Branson Ultrasonics Corporation, CT.     ATL-09999-6-2129   01/13/06       —             38,228         $ 38,228

  CombiSep, Inc., IA.                      ATL-09999-6-2268   01/13/06       —             61,164              —

  Sonobond Ultrasonics, Inc., PA.          ATL-09999-6-2131   01/13/06       —              4,793              —

  QuantumDot Corporation, CA.              ATL-09999-6-2293   03/07/06      23,209         —                   —

  mVerify Corporation, IL.                 ATL-09999-6-1979   03/08/06      75,260         —                   —

  National	Oceanic	&	Atmospheric	Administration	

  The JASON Foundation for Education, VA. ATL-09999-6-2350    03/07/06       —            441,942          299,690

  Seacoast Science Center, Inc., NH.       ATL-09999-6-2489   03/27/06       —            936,725              —




March 2006/Semiannual Report to Congress                                                                             59
                                                                                                                                                          Office of Inspector General




REPORTINg REQUIREmENTS

The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

  Section	                           Topic		                                                                                                                                  	Page

  4(a)(2)............................. Review of Legislation and Regulations .........................................................................................60–61


  5(a)(1)............................. Significant Problems, Abuses, and Deficiencies.............................................................................13–44


  5(a)(2)............................. Significant Recommendations for Corrective Action......................................................................13–44


  5(a)(3)............................. Prior Significant Recommendations Unimplemented...........................................................................60


  5(a)4............................... Matters Referred to Prosecutive Authorities.........................................................................................52


  5(a)(5) and 6(b)(2).......... Information or Assistance Refused ......................................................................................................61


  5(a)(6)............................. Listing of Audit Reports . ............................................................................................................... 52–59


  5(a)(7)............................. Summary of Significant Reports ....................................................................................................13–44


  5(a)(8)............................. Audit Reports—Questioned Costs .......................................................................................................53


  5(a)(9)............................. Audit Reports—Funds to Be Put to Better Use.....................................................................................54


  5(a)(10)........................... Prior Audit Reports Unresolved ...........................................................................................................52


  5(a)(11)........................... Significant Revised Management Decisions.........................................................................................61


  5(a)(12)........................... Significant Management Decisions with which OIG Disagreed . ........................................................61




Section 4(A)(2): Review of Legislation and                                                       Section 5(A)(3): Prior Significant
Regulations                                                                                      Recommendations Unimplemented

This section requires the inspector general of each agency to                                    This section requires identification of each significant recom
review existing and proposed legislation and regulations relating                                mendation described in previous semiannual reports for which
to that agency’s programs and operations. Based on this review,                                  corrective action has not been completed. Section 5(b) requires
the inspector general is required to make recommendations in the                                 that the Secretary transmit to Congress statistical tables showing
semiannual report concerning the impact of such legislation or                                   the number and value of audit reports for which no final action has
regulations on the economy and efficiency of the management of                                   been taken, plus an explanation of the reasons why recommended
programs and operations administered or financed by the agency                                   action has not occurred, except when the management decision
or on the prevention and detection of fraud and abuse in those                                   was made within the preceding year.
programs and operations. Comments concerning legislative and
regulatory initiatives affecting Commerce programs are discussed,                                To include a list of all significant unimplemented recommenda
as appropriate, in relevant sections of the report.                                              tions in this report would be duplicative. Information on the status
                                                                                                 of any audit recommendations can be obtained through OIG’s
                                                                                                 Office of Audits.




60                                                                                                              U.S. Department of Commerce/Office of Inspector General
Office of Inspector General




Sections 5(A)(5) and 6(B)(2): Information or                         Section 5(A)(11): Significant Revised
Assistance Refused                                                   management Decisions

These sections require a summary of each report to the Secretary     This section requires an explanation of the reasons for any signifi
when access, information, or assistance has been unreasonably        cant revision to a management decision made during the reporting
refused or not provided. There were no instances during this         period. Department Administrative Order 213-5, Audit Resolution
semiannual period and no reports to the Secretary.                   and Follow-up, provides procedures for revising a management
                                                                     decision. For performance audits, OIG must be consulted and must
Section 5(A)(10): Prior Audit Reports                                approve in advance any modification to an audit action plan. For
Unresolved                                                           financial assistance audits, OIG must concur with any decision
                                                                     that would change the audit resolution proposal in response to an
This section requires a summary of each audit report issued before   appeal by the recipient. The decisions issued on the four appeals
the beginning of the reporting period for which no management        of audit-related debts were finalized with the full participation and
decision has been made by the end of the reporting period (includ    concurrence of OIG.
ing the date and title of each such report), an explanation of why
a decision has not been made, and a statement concerning the         Section 5(A)(12): Significant management
desired timetable for delivering a decision on each such report.     Decisions with Which OIg Disagreed
There were 8 reports more than 6 months old.
                                                                     This section requires information concerning any significant
                                                                     management decision with which the inspector general disagrees.
                                                                     Department Administrative Order 213-5 provides procedures for
                                                                     elevating unresolved audit recommendations to higher levels of
                                                                     Department and OIG management, including their consideration
                                                                     by an Audit Resolution Council. During this period no audit issues
                                                                     were referred to the council.




March 2006/Semiannual Report to Congress                                                                                            61
ACRONymS

ATC.....................................................................................................................................................................American Trading Center


ATP............................................................................................................................................................ Advanced Technology Program


BIS........................................................................................................................................................... Bureau of Industry and Security 


C&A............................................................................................................................................................. certification and accreditation


CIO....................................................................................................................................................................... chief information officer


CCL........................................................................................................................................................................Commerce Control List


CS................................................................................................................................................................................ Commercial Service


EAR.....................................................................................................................................................Export Administration Regulations


EDA............................................................................................................................................. Economic Development Administration


ESA.............................................................................................................................................Economics and Statistics Administration


FDCA.................................................................................................................................................... Field Data Collection Automation


FECA............................................................................................................................................ Federal Employees’ Compensation Act


FISMA..............................................................................................................................Federal Information Security Management Act


GAO..................................................................................................................................................... Government Accountability Office


GOES........................................................................................................................ Geostationary Operational Environmental Satellites


GPS...................................................................................................................................................................Global Positioning System


GPRA....................................................................................................................................... Government Performance and Results Act


IFQ....................................................................................................................................................................... individual fishing quotas


IG..................................................................................................................................................................................... inspector general


IT............................................................................................................................................................................ information technology


ITA....................................................................................................................................................... International Trade Administration


MBDA.........................................................................................................................................Minority Business Development Agency


MBOC.........................................................................................................................................Minority Business Operating Committee


MEP.................................................................................................................................................Manufacturing Extension Partnership


NDAA................................................................................................................................................ National Defense Authorization Act


NIST................................................................................................................................. National Institute of Standards and Technology





March 2006/Semiannual Report to Congress                                                                                                                                                         63
Acronyms




NMFS.................................................................................................................................................... National Marine Fisheries Service


NOAA.........................................................................................................................National Oceanic and Atmospheric Administration


NPOESS.......................................................................................... National Polar-orbiting Operational Environmental Satellite System


NTIA........................................................................................................National Telecommunications and Information Administration


OHRM...................................................................................................................................... Office of Human Resources Management


OIG..................................................................................................................................................................Office of Inspector General


OMB.................................................................................................................................................... Office of Management and Budget


OWCP....................................................................................................................................Office of Workers’ Compensation Programs


POES....................................................................................................................................... Polar Operational Environmental Satellites


RLF.............................................................................................................................................................................. revolving loan fund


SARSAT....................................................................................................................Search and Rescue Satellite Aided Tracking System


USPTO.................................................................................................................................... United States Patent and Trademark Office





64                                                                                                                   U.S. Department of Commerce/Office of Inspector General
TyPES OF OIg WORK PRODUCTS



The various kinds of audits, evaluations, inspections, and investi      engagements can have a broad range of financial or nonfinancial
gations at our disposal enable the IG’s office to assess Commerce       focuses, such as an entity’s compliance with laws and regulations;
programs and operations from a range of perspectives. Thus we           management’s discussion and analysis presentations; and allow-
are able to provide program managers with reviews and recom             ability and reasonableness of final grant and contract costs.
mendations that are either narrowly focused or comprehensive, as
needed, to aid them in ensuring the most efficient and effective        INSPECTIONS
use of taxpayer dollars.
                                                                        Inspections	are reviews of an activity, unit, or office, or a con
AUDITS                                                                  tractor or other nonfederal entity that receives funds from the
                                                                        Department. They focus on an organization, not a whole program,
Performance	Audits address the efficiency, effectiveness, and           and are often designed to give agency managers timely and useful
economy of the Department’s programs, activities, and informa           information about operations, including current and foreseeable
tion technology systems. They may check a unit’s compliance             problems.
with laws and regulations, and evaluate its success in achiev
ing program objectives. They may also involve reviewing the             EVALUATIONS
Department’s financial assistance awards by assessing an award
recipient’s compliance with laws, regulations, and award terms;         Program	Evaluations are in-depth reviews of specific manage
allowance of costs; and the degree to which projects achieved           ment issues, policies, or programs.
intended results.
                                                                        Systems	Evaluations review system development, acquisitions,
Financial	Audits determine whether (1) a reporting entity’s             operations, and policy, focusing on computer systems and other
financial statements are presented fairly and in accordance with        technologies.
generally accepted accounting principles; (2) the entity has an
internal control structure that provides reasonable assurance of
achieving the control objectives set forth by OMB; and (3) the en       INVESTIgATIONS
tity complied with laws and regulations that could have a direct and
material effect on the financial statements, the Federal Financial      Investigations are conducted based on alleged or suspected
Management Improvement Act, and other laws and regulations.             wrongdoing by Department employees, contractors, recipients of
                                                                        financial assistance, and others responsible for handling federal
Attestation	 Engagements involve examining, reviewing, or               resources. Investigations that expose violations of Department
performing agreed-upon procedures on a subject matter or an as          rules and regulations or acts of fraud committed against the U.S.
sertion about a subject matter and reporting the results. Attestation   government can result in administrative sanctions and/or criminal
                                                                        or civil prosecution.




March 2006/Semiannual Report to Congress                                                                                            65
                             U.S. Department of Commerce
The U.S. Department of Commerce creates the conditions for economic growth and opportunity by
promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department
accomplishes its mission by providing national and local weather services, developing key econom­
ic and demographic data (including the decennial census), and working to advance technological
and scientific innovation, protect and restore environmental resources, promote international trade,
and support local, regional, and national economic development. These activities impact U.S. busi­
ness and industry daily and play a critical role in the nation's economic well-being.




                                       OFFICE OF THE
                                        SECRETARY


    Bureau of
                Economic                  International              U.S. Patent and

  Industry and
              Development                    Trade                    Trademark

     Security
              Administration             Administration                   Office





               Economics and
                  Statistics                                            Technology
               Administration                                          Administration



                                                                 National         National
                           Bureau of
        Bureau of the                                           Institute of     Technical
                           Economic                           Standards and     Information
          Census
                           Analysis                            Technology         Service




                                                                    National
                Minority Business        National Oceanic
                                                              Telecommunications
                 Development             and Atmospheric
                                                                and Information
                    Agency                Administration        Administration



                                    National
                                     Marine           National
                                    Fisheries       Ocean Service
                                     Service


                                    National         Marine and
                                    Weather           Aviation
                                    Service          Operations


                                   National
                                Environmental       Oceanic and
                                Satellite, Data,
                                      and           Atmospheric
                                 Information         Research
                                    Service
